<html>
<title> - OPPORTUNITIES TO IMPROVE AMERICAN ENERGY INFRASTRUCTURE</title>
<body><pre>[Senate Hearing 115-135]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 115-135

        OPPORTUNITIES TO IMPROVE AMERICAN ENERGY INFRASTRUCTURE

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 14, 2017

                               __________




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]







                       Printed for the use of the
               Committee on Energy and Natural Resources

           Available via the World Wide Web: http://fdsys.gov
           
           
           
           
           
           
           
           
                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

24-974                       WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
           
           
           
           
           
           
           
           
           
           
           
           
           
           
               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                    LISA MURKOWSKI, Alaska, Chairman
JOHN BARRASSO, Wyoming               MARIA CANTWELL, Washington
JAMES E. RISCH, Idaho                RON WYDEN, Oregon
MIKE LEE, Utah                       BERNARD SANDERS, Vermont
JEFF FLAKE, Arizona                  DEBBIE STABENOW, Michigan
STEVE DAINES, Montana                AL FRANKEN, Minnesota
CORY GARDNER, Colorado               JOE MANCHIN III, West Virginia
LAMAR ALEXANDER, Tennessee           MARTIN HEINRICH, New Mexico
JOHN HOEVEN, North Dakota            MAZIE K. HIRONO, Hawaii
BILL CASSIDY, Louisiana              ANGUS S. KING, JR., Maine
ROB PORTMAN, Ohio                    TAMMY DUCKWORTH, Illinois
LUTHER STRANGE, Alabama              CATHERINE CORTEZ MASTO, Nevada

                      Colin Hayes, Staff Director
                Patrick J. McCormick III, Chief Counsel
  Brianne Miller, Senior Professional Staff Member and Energy Policy 
                                Advisor
           Angela Becker-Dippmann, Democratic Staff Director
                Sam E. Fowler, Democratic Chief Counsel
                 Rich Glick, Democratic General Counsel
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                            C O N T E N T S

                              ----------                              

                           OPENING STATEMENTS

                                                                   Page
Murkowski, Hon. Lisa, Chairman and a U.S. Senator from Alaska....     1
Cantwell, Hon. Maria, Ranking Member and a U.S. Senator from 
  Washington.....................................................     3

                               WITNESSES

Koplin, Hon. Clay, Mayor of Cordova, Alaska, and CEO of Cordova 
  Electric Cooperative, Inc......................................    21
Leahey, Jeffrey, Deputy Executive Director, National Hydropower 
  Association....................................................    27
Bird, Stefan, President and Chief Executive Officer, Pacific 
  Power, a Division of PacifiCorp................................    48
Leopold, Diane, President and CEO, Dominion Energy, Dominion 
  Resources......................................................    59
Zindler, Ethan, Head of Americas, Bloomberg New Energy Finance...    70
Imhoff, Carl, Manager, Electricity Market Sector, Pacific 
  Northwest National Laboratory..................................    79
O'Sullivan, Terry, General President, Laborers' International 
  Union of North America.........................................    91

          ALPHABETICAL LISTING AND APPENDIX MATERIAL SUBMITTED

American Gas Association:
    Statement for the Record.....................................   168
American Public Power Association:
    Statement for the Record.....................................   173
American Rivers:
    Statement for the Record.....................................   175
American Whitewater:
    Statement for the Record.....................................   184
Bird, Stefan:
    Opening Statement............................................    48
    Written Testimony............................................    50
    Responses to Questions for the Record........................   133
(The) Business Council for Sustainable Energy:
    Statement for the Record.....................................   190
Cantwell, Hon. Maria:
    Opening Statement............................................     3
    Article from the Houston Chronicle entitled ``Hacked: Energy 
      industry's controls provide an alluring target for 
      cyberattacks'' dated 3/2/2017..............................     6
Citizens for Responsible Energy Solutions:
    Statement for the Record.....................................   196
Dahlmeier, Hon. Linda:
    Letter for the Record........................................   202
(The) Hydropower Reform Coalition:
    Statement for the Record.....................................   205
Imhoff, Carl:
    Opening Statement............................................    79
    Written Testimony............................................    82
    Responses to Questions for the Record........................   157
Koplin, Hon. Clay:
    Opening Statement............................................    21
    Written Testimony............................................    24
    Responses to Questions for the Record........................   123
Leahey, Jeffrey:
    Opening Statement............................................    27
    Written Testimony............................................    30
    Responses to Questions for the Record........................   126
Leopold, Diane:
    Opening Statement............................................    59
    Written Testimony............................................    61
    Responses to Questions for the Record........................   142
Murkowski, Hon. Lisa:
    Opening Statement............................................     1
Northwest Public Power Association:
    Letter for the Record........................................   213
O'Sullivan, Terry:
    Opening Statement............................................    91
    Written Testimony............................................    93
    Responses to Questions for the Record........................   165
Trout Unlimited:
    Letter for the Record........................................   215
Zindler, Ethan:
    Opening Statement............................................    70
    Written Testimony............................................    73
    Responses to Questions for the Record........................   150

 
        OPPORTUNITIES TO IMPROVE AMERICAN ENERGY INFRASTRUCTURE

                              ----------                              


                        TUESDAY, MARCH 14, 2017

                                       U.S. Senate,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:05 a.m. in 
Room SD-366, Dirksen Senate Office Building, Hon. Lisa 
Murkowski, Chairman of the Committee, presiding.

  OPENING STATEMENT OF HON. LISA MURKOWSKI, U.S. SENATOR FROM 
                             ALASKA

    Chairman. Good morning. The Committee will come to order.
    I want to thank, not only our committee members, but our 
witnesses that are here today. Some people have suggested that 
perhaps today is not a good day to be at work. I think it is a 
great day to be at work.
    [Laughter.]
    And appreciate the inconveniences some may have gone 
through to make sure that we are beginning this hearing to 
discuss infrastructure as it relates to the energy sector.
    Senator Cantwell and I were just remembering that, I 
believe, we were the only committee operating when we had a big 
snow dump last year. The hearing at that point in time was to 
focus on issues of the Arctic. We will have an opportunity to 
talk about that a little bit more as it relates to 
infrastructure as well. This is our first hearing on 
infrastructure in this new Congress. I am certain it will not 
be our last.
    We are planning today to look at lands, water and resource-
related infrastructure, well, that will come next week, and 
then infrastructure will also be a prominent theme at hearings 
we have planned on our foreign mineral dependence, 
cybersecurity and other issues.
    What I hope we can all agree on, through all of these 
hearings, is the types of infrastructure within our committee's 
jurisdiction are critically important to our country's growth 
and our prosperity.
    The United States has some of the most robust and reliable 
energy infrastructure in the world. It allows us to harness 
energy and move it from where it is produced to where it is 
utilized. Without it, there would be no fuel when we pull up to 
the station and there would be no light when we flip on a 
switch. Energy infrastructure is central to our way of life and 
our standard of living, but it is almost always an afterthought 
until it breaks down on us.
    We have seen that too often in recent years, making this a 
perfect time to look at our options to either rebuild, or in 
many cases, build energy infrastructure for the first time.
    The reality is that we have our work cut out for us, but 
that work can be made less difficult, take less time and cost 
less money if we engage in real solutions.
    Much of our nation's infrastructure is privately owned and 
maintained. Upgrading it and building new infrastructure is an 
expensive and time-consuming process. Hundreds of projects, 
representing billions of dollars of investment are currently 
navigating the federal labyrinth of permitting. Multiple 
agencies, numerous forms and duplicative requirements make this 
process cumbersome and could delay projects for years.
    Of course, the federal permitting process is also layered 
on top of state and local permitting processes with little to 
no apparent coordination at times, which only adds to the 
difficulty of getting to yes with a project.
    I am glad that the President has made infrastructure a 
national priority. I look forward to working with him and his 
Administration, as well as members of the Senate, to develop a 
broad infrastructure package. I certainly hope that package 
will include provisions that streamline the permitting process 
for all energy projects.
    President Trump has already taken some notable first steps 
by restoring regulatory fairness for projects like the Keystone 
XL project.
    I had an opportunity last Friday to meet with Prime 
Minister Trudeau. I think it is fair to say that he is pleased 
that the United States is taking another look at this important 
project.
    But we all recognize that there is a lot to do. Developing 
and constructing new energy infrastructure projects can help 
make energy cleaner, cheaper and more abundant, and it can have 
a tremendous impact on our rural communities.
    I am pleased that Mr. Koplin, Clay Koplin, the Mayor of 
Cordova and the CEO of Cordova Electric Cooperative, is here 
with us this morning to discuss how energy development in our 
home state has transitioned communities away from diesel power, 
lowered our costs and made energy delivery more affordable. 
What Mayor Koplin has been able to do over the years with his 
focus on small hydro has really made a difference, not only for 
Cordova, but those other communities that look to Cordova as an 
example.
    I also want to point out that when Congress considers an 
infrastructure package, our committee will, in many ways, be 
ahead of the curve on a potential contribution to it. During 
the development of our bipartisan energy bill last year we 
dedicated a significant amount of time to these challenges. Our 
members brought forward a number of good ideas to strengthen 
our energy infrastructure, including streamlining the 
permitting process for LNG exports, enhancing electricity 
delivery and improving the regulatory process for hydro 
relicensing and licensing itself.
    I was pleased that we were able to incorporate many of 
those ideas into the bill that passed the Senate last year with 
85 votes. I am well aware that they are still available to us 
to enact into law in this new Congress.
    I would like to say that energy is good. You all have heard 
that. This morning I would add to it that energy infrastructure 
is good and that it belongs in any conversation that we have 
about roads, bridges and airports.
    This is an important subject and I am, again, thankful that 
our witnesses were able to join us this morning.
    Senator Cantwell, I would welcome your opening remarks.

               STATEMENT OF HON. MARIA CANTWELL, 
                  U.S. SENATOR FROM WASHINGTON

    Senator Cantwell. Thank you, Madam Chair. Thank you so much 
for holding this important hearing and to all our witnesses for 
being here today. You should be commended for making your way 
through the snow to help us.
    When Americans wake up in the morning, they flip on the 
light switch, they turn on the hot water in the shower, they 
grab their fully-charged cell phone before heading out the door 
and fill up their cars at a gas station. The average person 
probably does not give much thought to the vast network of 
energy infrastructure that produces, transports and delivers 
energy to our homes and businesses.
    It is not an exaggeration to suggest that our economy, our 
national security and our way of life depend on the reliable, 
secure and efficient operation of energy infrastructure. And it 
has served our nation well. In fact, the National Academy of 
Engineers named electrification as the greatest engineering 
achievement of the 20th century.
    As the first two installments of the Department of Energy's 
Quadrennial Energy Review have pointed out, we are facing 
severe challenges that threaten to disrupt America's access to 
that reliable and affordable energy.
    First, our hydroelectric dams, power plants, electric 
transmission lines and pipelines are aging. The pace of 
investment has not always been sufficient to keep these 
facilities in good working order. According to the GridWise 
Alliance, our aging infrastructure is responsible for 
approximately 25 percent of all power outages in the U.S. The 
Electric Power Research Institute (EPRI) estimates that the 
power outages and reductions in power quality cost the U.S. 
economy as much as $20 billion annually.
    Second, much of our energy infrastructure is also 
susceptible to increasing severe storms, flooding, drought and 
wildfires. We have experienced numerous fires in the Northwest 
where we have had so much burn up, including many transmission 
lines. It's a real issue, and the Chair and I are going to 
continue to work on that.
    Third, our electric grid is being stressed, due in part to 
technology innovations, such as smart appliances and solar 
rooftops, which improve the consumer's experience but rely on 
operations for which the grid was not originally designed. As 
we move from one-way to two-way communication, this is a very 
important issue.
    In addition, we do not have enough electric transmission 
capacity to access the growing demand for electricity from 
remotely-located wind and solar farms, which are now cost-
competitive with conventional electric generation.
    Finally, there is the issue of cybersecurity that keeps me 
up at night thinking about potential hacks from Russians or 
foreign actors, as we see large-scale attacks happening in 
other places. If we do not make the necessary investments to 
prevent and defend against and minimize the impact of these 
cyberattacks, our enemies may succeed in causing a widespread 
blackout or devastation to our economy that is so important to 
millions of Americans.
    Chairwoman Murkowski and I put together a bipartisan energy 
bill last year that made needed investments in our energy 
infrastructure and our workforce and doubled the amount of 
funding to protect us against cyberattacks and improved the 
security of our energy supply chain. We need to know where 
these products are coming from. We passed that bill 85-12 and 
then spent several months negotiating a conference report with 
the House.
    Unfortunately, Speaker Ryan and the House of 
Representatives, in my opinion, dropped the ball in 
implementing this important energy legislation that would have 
helped our country move forward. I hope this year the Speaker 
will finally recognize that protecting our electricity grid and 
making needed investments requires serious attention.
    Today, I am also calling on the Trump Administration to 
protect the public from growing cyber threats that Russia and 
other foreign actors pose against our energy assets. That is 
why today, I am sending a letter to make sure that we clarify 
the DOE's role as a lead agency in our nation's cybersecurity 
matters, both on the defense side and on the response side, to 
hacking of our critical energy infrastructure. This is very 
important because we have heard rumors the President may issue 
an Executive Order expanding the Department of Homeland 
Security's role in this matter. I equate this to seeking 
medical attention and seeing a doctor, when in reality you need 
a dentist, because what you have is an oral problem. We need 
the right experts doing the right things to protect us.
    Although digitization of the grid offers tremendous 
benefits, it also makes the grid more susceptible to 
cyberattacks. This particularly troubling issue increases the 
concerns that we have about foreign actors and their 
capabilities of doing significant damage to the grid.
    As Admiral Rogers, Director of the NSA and the Commander of 
the U.S. Cyber Command during the Obama Administration, 
recently told Congress, ``Russia holds the cyber capability to 
cripple our infrastructure.'' And according to a recent NBC 
News report, the Russians have conducted more than a dozen 
significant cyberattacks against foreign countries, including 
the U.S. In addition, the Department of Homeland Security and 
the FBI recently published a Joint Analysis Report documenting 
Russian malicious cyber activity in the United States.
    We all know that they hacked into three Ukraine 
distribution utilities knocking power out to more than 225,000 
customers. It appears that might have been done again two 
months ago, when a utility in northern Kiev reported that the 
grid was brought down as a result of a cyberattack.
    Fortunately, the U.S. has not yet been successfully 
attacked that way. But we do know that there are frequent 
attempts to hack our utility systems. Just recently the Houston 
Chronicle published a report about our U.S. oil and gas 
pipelines and how susceptible they are to hackers using new 
malware that disrupts the control system. The story goes on to 
detail that these hackers could increase the flow of oil and 
gas in the manner that could potentially cause an explosion.
    Madam Chair, I would like to enter that article in the 
record.
    Chairman. Accepted.
    [The information referred to follows:]
    
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    

    
    
    Senator Cantwell. Thank you.
    Our grid and our economy and way of life have increasingly 
become more dependent on our electricity grid and smart 
equipment. We need to make sure that we are deploying energy in 
new ways safely and efficiently.
    The electrification of our economy requires a more robust, 
smarter, modern electricity grid to accommodate the 21st 
century. By reducing overall energy consumption and 
facilitating consumer access to cleaner grid modernization, we 
also can make improvements in the competitiveness of our U.S. 
economy.
    The World Economic Forum estimates that the digital 
transformation of the electricity technology will create $1.3 
trillion in economic value over the next ten years. So to me, 
it is imperative that the U.S. lead in this effort.
    As the Quadrennial Energy Review pointed out, we need to 
invest in the workforce that's needed, approximately 200,000 
workers with STEM skills will be needed for the electricity 
grid of the future. Our energy bill last year would have 
created a Department of Energy Workforce Advisory Committee to 
make sure we have the curriculum established to get those 
workers for the future.
    Madam Chair, I look forward to hearing our witnesses on 
these important issues and continuing to make investments in 
the energy infrastructure that we need for our nation. Thank 
you very much.
    Chairman. Thank you, Senator Cantwell.
    You remind us about the important issue of cybersecurity, 
not only as it relates to our energy sector, but really, all 
aspects of our economy. But on a morning like today when people 
are thinking about the physical aspects of our energy grid, 
because I would venture to say that with the snow and ice you 
have got some power lines that are down somewhere, not at my 
house, but you have got some power lines that are down 
somewhere. When people are inconvenienced or are without what 
they have come to expect or they realize that capacity is 
limited, it is less, their energy sources, are less reliable, 
they look to us to say what have you done to fix it? We are 
going to have an opportunity to discuss that here this morning.
    As I mentioned earlier, Mr. Clay Koplin is the Mayor of 
Cordova, Alaska. He is the CEO of Cordova Electric Cooperative. 
He has come a long way to be here with us this morning and I 
look to him as one of Alaska's energy experts. I appreciate 
that you're with us here this morning, Mayor.
    He will be followed by Mr. Jeffrey Leahey, who is the 
Deputy Executive Director for the National Hydropower 
Association. We appreciate your leadership in the hydrospace 
which is very, very important to us.
    Mr. Stefan Bird is with us. He is the Chief Executive 
Officer for Pacific Power. Thank you for joining us.
    He will be followed by Diane Leopold, who is the CEO and 
President of Dominion Energy. Good morning to you.
    Mr. Ethan Zindler will follow Ms. Leopold, and Mr. Zindler 
is the Head of Policy Analysis for Bloomberg New Energy 
Finance. Good morning.
    Mr. Carl Imhoff is next, the Manager of the Electricity 
Market Sector for Pacific Northwest National Laboratories. We 
thank you for your good work.
    The panel will be rounded out this morning by Mr. Terry 
O'Sullivan, who is the General President of Laborers' 
International Union of North America. We look forward to your 
comments as we talk about energy and those workers that provide 
these opportunities for us.
    With that Mayor Koplin, if you want to lead off the panel 
and we will just go through. I would ask each of you to keep 
your remarks to no more than five minutes. We do have a larger 
panel than usual this morning, but your full comments will be 
incorporated as part of the record. Thank you.

 STATEMENT OF HON. CLAY KOPLIN, MAYOR OF CORDOVA, ALASKA, AND 
           CEO OF CORDOVA ELECTRIC COOPERATIVE, INC.

    Mr. Koplin. Thank you.
    Good morning, Chairman Murkowski, Ranking Member Cantwell 
and members of the Committee. I'm Clay Koplin, Mayor of Cordova 
and a CEO of Cordova Electric Cooperative and have expertise in 
developing energy infrastructure and the values that it can 
deliver.
    Cordova is located in Prince William Sound near Anchorage, 
and the community has rebounded from a series of economic 
disasters that defines its resilience. Our current status 
includes a ranking as the 13th largest seafood delivery port in 
the country and the largest commercial fishing fleet in the 
State of Alaska.
    Socially it ranks as the number one high school in the 
state and the safest community in the State of Alaska.
    So, energy infrastructure in the community includes a smart 
grid boasting 100 percent LED lighting, 100 percent underground 
power lines with a high renewables contribution. This ascension 
has resulted from strategic infrastructure investments in a 
collaborative of local partnerships. These successes have 
attracted the interest of the national laboratories and around 
resilience, smart grid, microgrid and demonstration of best 
practices.
    In 2006 we had 48 inches of rain in three days and 
fortunately FEMA showed up with a federal disaster declaration 
that allowed the project to rebuild and make you whole. And 
then FERC showed up to assist and regulate.
    The problem is those two lead agencies and their inherent 
conflict were followed by a regulatory dog pile that kind of 
left Cordova Electric at the bottom of the stack holding the 
football. Fortunately, Senator Murkowski's office and her staff 
got everybody back onto the field, playing as a team, and after 
five long years and $22 million, had us to the finish line and 
our project back in operation.
    But on a positive note, during that flooding our 100 
percent underground power lines allowed not a single outage in 
the community.
    So, what are the ways that we could improve the way that we 
develop infrastructure? Execute local game plans to add 
resilience and value; invest in projects, not in processes; and 
promote federal facilitation to deliver higher value from these 
projects.
    I give you an example of a local game plan of converting to 
100 percent underground power lines. And that's just an example 
in the tens of millions of dollars of social value that that 
added to our community of a local initiative.
    But we also need a federal role of investing in projects by 
participating in both funding the infrastructure, but also 
sending experts in the field to derive value, not only from the 
projects themselves but for their own agencies. The whole team 
has to take the field. Now we can't just have blockers out on 
the field while we have the quarterbacks and the salary cap 
stars strategizing and criticizing from the sidelines.
    Cordova Electric's two initial hydroelectric projects had 
construction timelines and costs doubled during construction 
due to regulatory posture and a lack of accountability. These 
projects should have been developed by a team effort working in 
the field together right through the final whistle on the 
project. The dated traditional approach is to craft a perfect 
game plan for success. Now the problem is that injuries and 
fouls and other teams' changes in strategy undermine that plan.
    So what we need is an agile approach that expects those 
kinds of fouls and injuries and tricks by the other team and 
relies on the agility, the talent and the close communication 
between the team, including the federal agencies that can coach 
us to quickly adapting to changing conditions.
    There's a football team a little north of here in Foxboro, 
Massachusetts that's perfected that adaptation game, and I 
think there's some lessons that we might be able to learn in 
our infrastructure investments.
    Cordova is poised to proceed with a Crater Lake Water and 
Power Project right now that's been designed to build an agile 
team and an agile project management structure. It will 
probably succeed with or without federal assistance to deliver 
water to a growing industry, renewable energy, emergency and 
commercial water supply, recreational, educational, self-
sufficiency and commercial business opportunity value streams 
all from one project. That's the kind of shared cost/shared 
benefit projects that we should be looking at with our 
infrastructure investments and it exemplifies Cordova 
Electric's aspiration to be a leader in environmental 
stewardship in a new age of energy.
    The project probably would be under construction now if 
hydro had been classified as renewable and we had access to the 
crab spawning to build it, but we'll use RUS and other 
mechanisms to get the project built. We want to finance this 
long-life asset for a sustained, balanced score card return on 
investment of all those value streams.
    Unfortunately, the concept of a public/private partnership 
may not work so well for energy infrastructure investments, 
like we'd hope. Private equity tends to price to risk, and 
unfortunately, regulatory is one of the biggest risks of 
building a project.
    In summary, I encourage local, strategic game plans that 
make sense investing in both financial and agency staff 
resources out in the field so that we can have successful 
outcomes for all players and which will consistently deliver 
the better social, economic and environmental values that we 
all want from these projects.
    Thank you for this opportunity to testify. I'd encourage 
any questions you might ask and I'd strongly encourage a field 
hearing in Cordova so that you can actually see these solutions 
and successes on the ground and not just hear about them.
    Thank you.
    [The prepared statement of Mr. Koplin follows:]
    
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    

    
    Chairman. Thank you, Mayor. We will look at the opportunity 
for my colleagues here. The Mayor has indicated this is great 
little community with safe, good schools. It is also without 
access to the road system. Population about--
    Mr. Koplin. 2,300.
    Chairman. 2,300 people.
    But when you think about what it means to take a community 
of 2,300 people off of diesel and put it on renewable available 
hydro, it makes all the difference.
    Sorry, I do not mean to be editorializing, I just get 
excited about Cordova because it is a great community.
    Senator Franken. Sounds like a great place for a field 
hearing.
    Chairman. I think that is a wonderful suggestion, Senator 
Franken. We might have to take the Mayor up on that.
    Let's go to Mr. Leahey.

    STATEMENT OF JEFFREY LEAHEY, DEPUTY EXECUTIVE DIRECTOR, 
                NATIONAL HYDROPOWER ASSOCIATION

    Mr. Leahey. Good morning, Chairman Murkowski, Ranking 
Member Cantwell and members of the Committee. I am Jeffrey 
Leahey, Deputy Executive Director of the National Hydropower 
Association (NHA). I'm pleased to be here to discuss the 
importance of hydropower to the U.S. electric system, its 
untapped growth potential and the policy issues that need 
addressing to realize that growth.
    Today our existing U.S. hydro fleet is made up of almost 
2,200 plants and provides six to seven percent of all U.S. 
electricity and close to half of all renewable generation, 
making hydropower the single largest provider of renewable 
electricity. In addition, another 42 pump storage plants make 
up almost 97 percent of U.S. energy storage. The system also 
contributes to cleaner air and provides other benefits 
including river management for fish and habitat protection, 
flood and drought management, water supply, irrigation and 
others. Hydro also provides many grid benefits, peaking 
generation, load following, reliability and more. With the 
growing need for these services, U.S. hydropower has expanded 
in recent years with a net capacity increase of close to 2,000 
megawatts since 2005.
    Hydro projects also bring economic benefits where they are 
located. The industry employs a sizable workforce of 150,000 
and access to low cost, clean, reliable power attracts many 
high-tech firms and manufacturers to regions with hydropower.
    And hydro can do even more. The myth is that hydro is all 
tapped out. However, I urge the Committee to review the new 
hydropower vision report by the Department of Energy released 
last year. It highlights the significant potential to expand 
U.S. hydropower with the right policies in place. Fifty 
gigawatts of growth is possible by 2050.
    For example, only three percent of our 80,000 dams generate 
electricity. A 2012 assessment found over 12 gigawatts of 
potential with eight gigawatts available at the top 100 sites. 
Eighty-one of the top 100 sites were located on Corps of 
Engineers' dams.
    Some projects though, are not pursued over concerns about 
the uncertain, duplicative and lengthy licensing process. For 
example, one NHA member reports that their new project at a 
Corps dam in Iowa will come online in 2018 having started 
development in 2005, 13 years earlier.
    Turning to existing hydro projects, owners can get more 
power out of their plants through upgrades in efficiency 
improvements. This allows for increased generation and can have 
added benefit of improved environmental performance.
    Looking at pump storage, these projects can rapidly shift, 
store and reuse energy when there is corresponding system 
demand and facilitate the integration of intermittent, 
renewable resources. As more intermittent generation is added 
to the grid, the need for pump storage is increasing. Right 
now, about 15,000 megawatts of proposal are before FERC.
    However, Congress needs to address the challenges existing 
asset owners and developers face. Water is a public resource 
and the industry recognizes the need for thorough project 
reviews. But the process can be a cause of delay.
    Again, using non-powered dams as an example, FERC issues 
the license but construction cannot begin until other approvals 
from the federal dam owners are in place. Processes like these 
and others are not always coordinated, are sequential rather 
than in parallel.
    Also holding back hydro is its limited recognition or lack 
thereof as a renewable. State renewable portfolio standards and 
other environmental markets often contain restrictions on the 
amount of eligible hydropower.
    Federally, programs for renewable energy procurement or 
development on public lands either exclude hydro completely or 
restrain its participation. When hydro is not valued as a 
renewable it creates economic disadvantage. The renewable 
energy tax credits are a clear example.
    The 2015 PATH Act creates a competitive imbalance between 
wind and solar and other renewables. The hydropower credits 
were extended through 2016, now expired, while the wind and 
solar credits were extended for years longer. Competing for 
investment dollars, this tipped the scales against hydropower.
    NHA also highlights R&D investment for technology 
innovation. The DOE Water Power Office is one of the smallest 
in the Department, and the hydropower R&D program routinely 
receives the least funding followed closely by the marine 
energy program.
    One last policy area to consider is that of regional 
electricity markets. Often the grid benefits of hydro and pump 
storage are not valued and compensated under existing power 
markets, and project proponents do not receive the full benefit 
of the services they provide.
    While my testimony today focused on hydro's benefits and 
growth opportunities, I want to take a moment on dam safety.
    As with other infrastructure, U.S. dams and its associated 
infrastructure are aging and in some cases, are in need of 
reinvestment. However, it is important to note that hydropower 
dams are highly monitored and regulated by FERC or the federal 
dam owners themselves. The hydropower industry believes 
protecting lives and property are the top priority and we work 
cooperatively with FERC's division of dam safety and 
inspections.
    NHA also has a committee of ONM and Dam Safety 
professionals who discuss technical information and best 
practices and we run our operational excellence program. This 
web-based tool shares information across the industry so asset 
owners can learn from one another to meet the highest standards 
of performance. Certainly, NHA supports continued investment in 
both the civil works and power sides of the industry as part of 
any discussion into hydropower infrastructure needs.
    With that, let me conclude and thank the Committee for this 
opportunity to testify and I look forward to your questions.
    [The prepared statement of Mr. Leahey follows:]
    
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    

    
    
    
    
    Chairman. Thank you, Mr. Leahey.
    Let's go to Mr. Bird. Welcome.

    STATEMENT OF STEFAN BIRD, PRESIDENT AND CHIEF EXECUTIVE 
        OFFICER, PACIFIC POWER, A DIVISION OF PACIFICORP

    Mr. Bird. Chairman Murkowski, Ranking Member Cantwell and 
members of the Committee, I greatly appreciate the opportunity 
to appear before you today as you consider the need for 
investment and modernization of U.S. energy infrastructure.
    My name is Stefan Bird, and I'm the President and CEO of 
Pacific Power. Pacific Power, together with Rocky Mountain 
Power, comprise PacifiCorp which together serve 1.8 million 
customers across six Northwestern states. PacifiCorp owns and 
operates a diverse portfolio of resources totaling 
approximately 11,000 megawatts and includes hydroelectric 
power, coal power, natural gas, geothermal, wind and solar and 
biomass resources. We integrate those resources and serve our 
customers across the largest, privately-owned grid in the 
Western U.S. that totals 16,500 miles of high voltage 
transmission across ten Western states.
    Your opening comments, Chairman Murkowski and Ranking 
Member Cantwell, were right on point, certainly in regard to 
the need for transmission infrastructure investment. And so, 
I'm going to abbreviate my opening comments and really move to 
the focus of my comments this morning in regard to streamlining 
and modernizing our permitting structure to keep pace with our 
need for advancements in energy infrastructure.
    As the largest transmission owner in the Western U.S., 
PacifiCorp has long supported measures to better coordinate the 
existing federal permitting and citing processes from major 
electric transmission projects on public lands to reduce the 
uncertainty for project applicants and to streamline the 
approval process.
    For the past ten years, we've been actively permitting 
several stages of a $6 billion, 2,000-mile transmission 
infrastructure expansion, we call Energy Gateway. And some of 
those stages are already constructed and operating.
    The purpose of Energy Gateway is to improve reliability and 
access to some of the lowest cost renewable resources in the 
Western United States. An important benefit is the hundreds of 
living wage construction jobs and the millions of dollars in 
property and sales tax revenue these projects contribute to the 
communities they are cited.
    To give you an idea of the delays we experience, consider 
the record of decision we received on the last day of the 
previous Administration for our Gateway West transmission 
segment. It described the long and torturous review and 
approval process beginning with our initial application in May 
2007, almost ten years for a project designed to bring clean 
energy to our customers and to relieve congestion constraints 
on our system. Without PacifiCorp's Energy Gateway and other 
regional transmission projects, which must cross public lands, 
some of our nation's largest and best energy resources will 
remain unable to contribute as they wait for transmission lines 
to be cited and built.
    The most critical path items to achieving this objective is 
schedule predictability within the federal permitting process. 
To achieve this goal, we believe an effective federal 
permitting process should have: A, a single point of 
accountability establishing a lead agency rather than having 
the company deal with multiple agencies; B, have clear and 
permanent deadlines--changing deadlines by bureaucrats render 
business decisions uneconomic and meaningless; and C, avoiding 
redundant and unnecessary views every time there's a new 
government policy change, essentially grandfathering of prior 
action. In other words, as new policies and guidance are rolled 
out, the new policy guidance should clearly state that projects 
already under NEPA review are grandfathered under the policy in 
place at application. Ten years to permit a transmission 
infrastructure project, by any measure, is far too long.
    While building new, modern infrastructure is vital to our 
nation's economic goals. It is also critical to keep trees away 
from power lines. We believe that integrated vegetation 
management is an environmentally sound and cost effective way 
of keeping trees from power lines and we suggest the Forest 
Service adopt a policy of integrating, utilizing integrated 
vegetation management on federal lands throughout the country.
    To provide an understanding of how difficult it can be to 
obtain permission and access to provide necessary vegetation 
management, my company's facilities cross 33 different national 
forests. Each national forest is divided into three or four 
districts, each with independent decision-making authority. 
That means PacifiCorp foresters may have to work individually 
with well over 100 different governing authorities for the U.S. 
Forest Service alone. Add that to the number of regions of the 
BLM, National Parks and Federal Wildlife Refuges, and one can 
understand how working with federal agencies can be so 
uncertain and time consuming.
    Investment in new transmission systems, upgrading older 
systems to be smarter and more efficient and accessing and 
maintaining the grid means energy security, economic 
opportunity and good jobs and wages for our country.
    PacifiCorp wants to be part of creative and collaborative 
solutions that will help create the next American 
infrastructure expansion.
    I want to thank you again for the opportunity to 
participate in this hearing. PacifiCorp and Berkshire Hathaway 
Energy look forward to working with you further on these 
important issues.
    [The prepared statement of Mr. Stefan Bird follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    

    
    
    Chairman. Thank you, Mr. Bird.
    We next turn to Ms. Diane Leopold. Welcome to the 
Committee.

STATEMENT OF DIANE LEOPOLD, PRESIDENT AND CEO, DOMINION ENERGY, 
                       DOMINION RESOURCES

    Ms. Leopold. Good morning, Chairman Murkowski, Ranking 
Member Cantwell and Committee members. I am Diane Leopold, 
President and CEO of Dominion Energy, the natural gas unit of 
Dominion Resources. I also chair the Interstate Natural Gas 
Association of America, although, I am not here in that 
capacity.
    Thank you for inviting me to testify on the immense and 
well-documented economic, environmental and security benefits 
of expanding America's energy infrastructure. These investments 
improve our quality of life, global competitiveness and 
national security.
    Our projects employ private capital, not taxpayer dollars. 
Dominion alone is working on about $16 billion in 
infrastructure projects. However, to make these beneficial 
investments we need certainty from federal agencies, not a 
rubber stamp, but a rational path forward with clear processes, 
reasonable schedules and reasonable decisions. The result will 
be a cleaner environment, lower electricity and natural gas 
bills for consumers and businesses and more economic 
opportunity. Three of our projects illustrate the opportunities 
and challenges.
    Our $4 billion Cove Point Natural Gas Liquefaction Project 
is an addition to an existing LNG import terminal in Maryland. 
It has 3,700 workers on-site, including 3,000 skilled craft 
professionals. This exceeds the original forecast. Thousands 
more new jobs will come from producing, processing and 
transporting natural gas to the terminal and there will be $40 
million annually in new local taxes. Cove Point will provide a 
small portion of America's abundant natural gas to India and 
Japan, two vital, global partners. This strengthens our global 
footprint and reduces their dependence on less friendly gas 
producing nations. Shipments from Cove Point will reduce the 
U.S. trade deficit by about $5 billion while having a 
negligible impact on domestic energy prices.
    Federal and state permitting took about three and a half 
years, requiring more than 55 federal, state and local permits 
and reviews. This exhaustive process now looks simple compared 
with what we faced with the much-needed Atlantic Coast 
Pipeline, or ACP. ACP is a $5 to $5.5 billion, privately 
financed, 600-mile, underground utility project. Starting in 
Senator Manchin's home state of West Virginia, it will bring 
gas from the Appalachian region to Virginia and North Carolina.
    Local electric and natural gas utilities urgently need more 
natural gas. Today, large business customers must have service 
curtailed on very cold days so residential customers won't 
literally be left out in the cold. Lack of natural gas is also 
slowing the shift to cleaner electricity and is strangling 
economic development.
    Two independent economic studies make ACP's case. One 
projects over 17,000 construction jobs. The other estimates 
$377 million in annual savings on utility bills resulting in 
more disposable income, a stronger economy, better quality of 
life for families and businesses, large and small.
    ACP requires more than 18 major federal permits and 
authorizations, plus numerous other federal, state and local 
approvals. The process is already approaching three years and 
has a September 28th deadline to complete federal 
authorizations. A date that is later than it needed to be and 
not as certain as it should be.
    To understand the delays, let me share some examples.
    To protect the view from the Blue Ridge Parkway and 
Appalachian National Scenic Trail, we proposed boring under a 
mountain for nearly one mile using a much more costly method to 
ensure no disturbance or interference with the parkway or 
trail. The National Park Service took 14 months to review our 
22-page application just to survey. We're still waiting for a 
decision on construction. And 21 of the 600 miles of ACP will 
cross national forests, just as hundreds of miles of natural 
gas pipelines run safely through national forests today. We 
rerouted 95 miles to meet its concerns though the Forest 
Service continues to move the goal posts with changing 
requirements and standards.
    Similarly, our Skiffes Creek electric transmission line has 
been under Army Corps of Engineer's review for five years. The 
line is needed to provide reliable electricity on the Virginia 
peninsula when two aging coal units close to meet EPA 
regulations. This region hosts the world's largest shipyard, as 
well as eight military and DOE facilities.
    Unfortunately, the Corps has not been able to complete the 
required consultation with the Advisory Council on historic 
preservation, the National Park Service and other parties. The 
project neither directly impacts Park Service lands nor 
requires a Park Service permit.
    We were encouraged by the provisions of this Committee's 
legislation the Senate approved last year to help critical 
infrastructure projects advance. In particular, we support 
concurrent NEPA review by FERC and other permitting agencies, 
including agencies working with FERC's extensive NEPA process, 
rather than conducting duplicative reviews.
    We also support an expectation that agencies notify 
applicants when their permits are complete to help stay within 
the timeline.
    Chairman Murkowski and members of the Committee, the energy 
industry is poised to accelerate development of critical 
infrastructure serving the national interest. We're dedicated 
to safety and environmental protection. We believe in 
transparency and following regulatory processes. But to commit 
billions in private capital, we need a reasonable regulatory 
path to success if we follow the process.
    Thank you.
    [The prepared statement of Ms. Leopold follows:]
    
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
       
    Chairman. Thank you, Ms. Leopold.
    Mr. Zindler, welcome.

  STATEMENT OF ETHAN ZINDLER, HEAD OF AMERICAS, BLOOMBERG NEW 
                         ENERGY FINANCE

    Mr. Zindler. Thank you.
    I'm going to move a little quickly and skip some of the 
early remarks to make sure I finish on time here.
    And thanks for the opportunity, once again, to participate.
    I am here today in my role as an analyst for Bloomberg New 
Energy Finance, which is a division of the financial 
information provider, Bloomberg LP. My remarks today represent 
my views alone, not the corporate positions of Bloomberg LP and 
of course, they're not investment advice.
    My testimony today will focus on the next generation of 
energy technologies and the infrastructure that will be 
critical to accommodate them. I think there are many on the 
panel here who can talk in real depth and expertise about our 
current challenges so I'll try not to be redundant with those.
    The U.S. is transforming how it generates, delivers, and 
consumes energy. These changes are fundamentally empowering 
businesses and homeowners, presenting them with expanded 
choices and control.
    Consumers today can, for instance, analyze and adjust their 
heating, air-conditioning and electricity use over their smart 
phones thanks to smart meters and smart thermostats.
    Consumers in much of the country can choose their 
electricity supplier and may opt for ``green choice'' plans. 
They can produce power themselves with rooftop solar 
photovoltaic systems. They can even store it locally with new 
batteries.
    Consumers can choose to drive vehicles propelled by 
internal combustion engines, electric motors or some 
combination of both of those. And that car can be powered by 
gasoline, by diesel, electricity, ethanol, perhaps even 
methanol, natural gas or hydrogen, and electric vehicle drivers 
who own homes can turn their garages into fueling stations 
simply by using the outlet on the wall.
    Realistically speaking, few Americans today have the 
inclination or income to become high-tech energy geeks, but 
that is changing as prices associated with these technologies 
plummet. In the case of electric vehicles, such cars can be 
appealing simply because they perform better.
    We at Bloomberg New Energy Finance believe that further 
growth and eventual mass adoption of these technologies is not 
possible, it's not probable, but it's inevitable given rapidly 
declining costs.
    For instance, the price of a photovoltaic module has fallen 
by 90 percent since 2008, to approximately 40 cents per watt 
today. For millions of U.S. businesses and homeowners, ``going 
solar'' is already an economic decision, and last year the U.S. 
installed far more solar generating capacity than it did any 
other technology.
    By the end of the next decade, cost competitiveness for 
distributed solar will arrive most places in the United States 
and without the benefit of subsidies.
    Similarly, the value of contracts signed to procure U.S. 
wind power have dropped by approximately half as the industry 
has deployed larger and more productive wind turbines. Wind, 
last year, surpassed hydro-electricity to become the fourth 
biggest generator in the U.S. We expect current wind capacity 
to at least double by 2030. Many of these new energy 
technologies are, of course, variable. In other words, if 
there's no wind, there's no wind power. If there's no sun, 
there's no solar-generated power. Thus, the growth in these and 
other new energy technologies will be accompanied by 
unprecedented sales of new batteries of various shapes and 
sizes.
    Utilities such as Southern California Edison and others 
have already begun piloting large-scale batteries in certain 
markets while providers such as Stem and Tesla offer so-called, 
``behind-the-meter'' storage solutions for businesses and 
homeowners.
    In the past five years, lithium-battery prices have fallen 
by at least 57 percent and we expect another 60 percent drop by 
2025. That will contribute to 9.5 gigawatt/hours of battery 
capacity in the U.S., up from 1.7 today.
    Continuing battery price declines will also make electric 
vehicles for the first time a viable option for middle-class 
U.S. consumers without the benefit of subsidies.
    The new, empowered consumer poses inherent challenges to 
the traditional command-and-control/hub-and-spoke models of 
conventional power generation and power markets. We have 
already seen examples around the globe where incumbent 
utilities were caught flat-footed by rapid clean energy build-
outs. In some cases it has been heavy subsidies for renewables 
that have catalyzed this change, but more recently, simple low 
costs are allowing wind and solar to elbow their way onto the 
grid.
    So, where does this leave infrastructure in this 
conversation? First, conceptually, we must accept that the 
empowered consumer is here to stay. To some degree, this 
acceptance is already underway in the private sector where 
companies that once focused mainly on large-scale power 
generation are merging with consumer-
facing utilities or buying smaller solar installers and battery 
solution providers. And second, policymakers should look to 
promote 
infrastructure that accommodates a new, more varied, more 
distributed world of energy generation and consumption.
    Policy-makers may also seek to facilitate the development 
of high-voltage transmission lines across the U.S. It has long 
been an adage that the U.S. is the home to the ``Saudi Arabia 
of wind'', but a lot of that resource might as well be in Saudi 
Arabia given how difficult it can be to build across state 
transmission.
    Investment is also needed at lower voltages as well. Our 
passive, one-directional, electricity distribution system is 
under strain as new distributed generation capacity comes 
online.
    Now finally, policymakers may consider ways to support 
electric vehicle charging stations. As sales of such cars grow, 
consumers are already putting greater pressure on certain 
distribution nodes around the country.
    And lastly, the changes afoot will require what might be 
best 
described as infrastructure software. Most importantly and 
pressingly, this must include the reform of electricity markets 
to take into account the new realities of 21st century power 
and supply and demand. It may also include expanded programs to 
educate, excuse me, educate energy professionals to the new 
realities of the energy markets. And, yes, of course, it could 
include some forms of software to improve energy monitoring and 
optimize system performance.
    In closing, I would reiterate that none of this needs be 
done at the exclusion of investing in traditional energy 
infrastructures being discussed by others on the panel; 
however, any rational discussion about energy infrastructure 
today must do more than take into account the current 
situation. It must also consider where we're going to end up 
tomorrow.
    Thank you.
    [The prepared statement of Mr. Zindler follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    

    
    Chairman. Thank you, Mr. Zindler.
    Mr. Imhoff, welcome.

 STATEMENT OF CARL IMHOFF, MANAGER, ELECTRICITY MARKET SECTOR, 
             PACIFIC NORTHWEST NATIONAL LABORATORY

    Mr. Imhoff. Thank you and good morning.
    Thank you, Chairman Murkowski and Ranking Member Cantwell 
and also the Committee members for the leadership of this 
Committee in helping drive the nation's energy future forward.
    My name is Carl Imhoff. I lead the Grid Research Program at 
the Pacific Northwest National Laboratory (PNNL) in Washington 
State. I also Chair, jointly with NREL, the DOE Grid 
Modernization Laboratory Consortium. It's a group of 13 
national labs that, along with over 100 partners from industry, 
industry groups such as Gridwise Alliance and universities, 
supports the Department's Grid Modernization Initiative.
    PNNL has long supported the power system innovation and 
reliability for the Northwest and for the nation.
    The laboratory led DOE industry collaborations in deploying 
next generation transmission sensors to help avoid blackouts, 
and in California alone avoided outages result in an estimated 
savings of about $360 million annual to consumers.
    PNNL also led a demonstration to test transactive control 
in the Pacific Northwest validating smart grid benefits and new 
control approaches of Avista Corporation in Spokane, who also 
has a footprint, and consumers in Idaho and Alaska. They 
implemented a distribution automation and smart metering 
projects that reduced consumer outages by ten percent, 
shortened the duration of those outages by 21 percent and 
delivered 1.5 million avoided outage minutes in just the first 
year of operation.
    These two examples illustrate some of the high return on 
investment achieved by utilities and national labs across the 
country when combining their efforts and new infrastructure 
innovation with private, public validation.
    The DOE grid modernization initiative is an important 
source of innovation for the nation's efforts in terms of 
modernizing infrastructure. It's an innovative cross-cut effort 
spanning multiple DOE program offices, develop new concepts, 
tools, platforms and technologies to support grid 
modernization. A portfolio of ADA projects was funded for up to 
three years, beginning in FY'16.
    Today I offer three primary points. First, that the 
electric sector is fundamental to a secure energy 
infrastructure and it's comprised of 21st century assets that 
go well beyond steel and concrete. Secondly, the electric 
infrastructure is changing dramatically and a modern grid 
requires the addition of a new metric, a metric of flexibility 
to add to the pantheon of reliability, affordability and 
security. Grid flexibility will be vital to an effective 
infrastructure in the future. And then third, there are 
substantial opportunities for low hanging fruit, if you will, 
of improving the infrastructure via public/private partnership. 
And I'll share some examples for these.
    The grid infrastructure spans the nation providing 
essential services to the U.S. economy through over three and a 
half thousand utilities, but it also serves small, remote 
communities that must provide, oftentimes, their own electric 
services predominately through local diesel generation and 
microgrids.
    The new digital revolution is increasingly important to our 
economy creating new consumer services, businesses and jobs. 
But there is more to infrastructure than cables, towers and 
generators. Utilities rely on major control centers to operate 
the power system, requiring investment in software, 
communications and controls. Sensor networks that provide real-
time sensing, both locally and across entire interconnections, 
are emerging to dramatically improve reliability and asset 
management.
    Finally, utilities, vendors, universities and DOE 
laboratories maintain a network of research and testing and 
workforce training infrastructure necessary to support the 
revitalization of the grid. These 21st century assets are as 
critical as towers and wires when it comes to electric 
infrastructure modernization.
    Trends toward distributed resources and the smart grid edge 
and reshaping utility business models as well. Today we have 
about two billion intelligent, connected devices at the edge of 
the grid. Utilities expect that to grow to 20 billion by 2025 
and one of the big challenges is a number of those devices will 
be on the customer side of the meter, outside the direct 
control of utilities. So, it's changing dramatically, the 
business model.
    Second, the emerging of distributed resources is 
accelerating faster than many in the industry expected it to. 
It includes distributed generation like photovoltaics, smart 
loads, demand response, electric vehicles and energy storage. 
These changes collectively require the grid to become more 
flexible and yet deliver more flexibility to a combination of 
better generator controls, better coordination across the 
boundary between transmission and distribution to engage smart 
loads at scale and energy storage.
    Finally, the proliferation of internet and digital devices 
throughout our economy has increased the challenges of 
cyberattack on the electric infrastructure. The electric grid 
is under regular reconnaissance and cyberattack activities from 
both foreign-state and non-state actors.
    The electric industry, in partnership with the government, 
has responded strongly to address these challenges including 
improving best practices through self-assessment and launching 
the Electric Sector Coordinating Council. In addition, PNNL 
developed the Cyber Risk Information Sharing Program (CRISP) 
with DOE and is now supporting NERC in the deployment of the 
program to utilities nationwide. The CRISP program provides 
cyber threat intelligence to identify tactics, techniques and 
procedures used by advanced threat actors from nation states as 
well as professional hackers.
    In closing I offer three recommendations. First, consider 
in your deliberations adding the metric of grid flexibility to 
the fundamental metrics for outcomes for the grid of the 
future. Second, leverage the recent substantial base of 
successful demonstration system demonstrations that jump start 
the electric infrastructure modernization. Topics that have a 
wide base of lessons learned in successful business case 
development include, distribution automation, advanced 
metering, conservation of voltage reduction and the use of 
distribution management system software.
    This last item is what enables utilities to know where 
outages are. Today, more than half of our utilities still have 
to wait for a phone call to inform them of an outage and 
broadening the penetration of distribution management system 
software would have great impact.
    And then lastly, include public/private partnership to 
conduct infrastructure pilots at the regional level. These 
pilots can rapidly validate the emergency new modernization 
concepts and tools emerging from industry, the DOE research 
portfolio and elsewhere.
    With that, I'll stop.
    Thank you.
    [The prepared statement of Mr. Imhoff follows:]
    
    
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    Chairman. Thank you, Mr. Imhoff.
    Mr. O'Sullivan, welcome to the Committee.

  STATEMENT OF TERRY O'SULLIVAN, GENERAL PRESIDENT, LABORERS' 
              INTERNATIONAL UNION OF NORTH AMERICA

    Mr. O'Sullivan. Thank you very much.
    Chairman Murkowski, Ranking Member Cantwell and members of 
the Energy and Natural Resources Committee, on behalf of the 
500,000 strong, proud and united men and women of the Laborers' 
International Union of North America (LIUNA), I want to thank 
you for the opportunity to testify here today. It's both an 
honor and a privilege to do so.
    As the people who build, repair and maintain our nation's 
critical energy infrastructure, LIUNA members support a 
reasonable, rational, fact-based, energy policy. We support 
regulatory reform that streamlines the permitting process, 
allows reviews by separate agencies and entities to proceed 
concurrently and provides for timely, definitive decisions that 
enable approved projects to proceed without delay.
    LIUNA joins others in the energy industry in calling for 
the swift filling of vacant spots on the Federal Energy 
Regulatory Commission.
    LIUNA also supports the responsible exploration and 
development of energy resources within the Arctic National 
Wildlife Refuge, ANWR.
    Permitting energy production on just one-tenth of one 
percent of ANWR's total acreage will create tens of thousands 
of good paying, family supporting jobs over the next few 
decades. Its royalties, lease payments and corporate income 
taxes will generate billions in state and federal revenue that 
could be reinvested in our failing infrastructure.
    Chairman Murkowski, for decades your state has demonstrated 
that natural resource development can co-exist with nature, 
building family sustaining careers while maintaining a natural 
beauty of wild places. Your state has shown that there is no 
need to pit jobs against the environment. Yet, on his way out 
of office, President Obama removed key Arctic and Atlantic 
offshore areas from future leasing, destroying good jobs. LIUNA 
hopes that Congress and President Trump will reverse this, what 
we consider, a bad decision.
    Developing sound, thoughtful energy policy that takes into 
consideration the men and women who work in the energy sector 
should be a bipartisan agenda creating millions of new jobs 
across many sectors of the economy while modernizing our vital 
energy infrastructure and ensuring America's energy 
independence. The American society, as civil engineers, has 
given our energy infrastructure a grade of D plus. The men and 
women of LIUNA and other building trades union are eager to go 
to work to address this problem, yet opposition to almost every 
energy project, especially pipelines, has threatened to derail 
all serious attempts to address this issue.
    It also threatens the creation of good, middle class jobs. 
For workers in communities throughout the United States, 
pipeline projects and other energy projects are lifelines. It's 
not the pipelines that are dirty, it's the politics.
    Today, LIUNA has more than $50 billion worth of pipeline 
work under contract. Tens of thousands of highly trained, safe, 
skilled building trades members will be put to work for years 
to come on projects such as the Keystone XL pipeline, the 
Dakota Access pipeline, the Atlantic Sunrise pipeline, the 
Rover pipeline, Atlantic Coast pipeline, Sable Trail pipeline, 
Penneast pipeline and the Cove Point LNG facility that was 
talked about earlier. And these are just the tip of the 
iceberg.
    Although these jobs, like all construction jobs, are 
temporary by nature, anyone who has a clue about the work we do 
knows that by stringing together one temporary job after 
another construction workers are able to create a career 
allowing them to provide for their families and save for their 
retirement. At a time when it's harder and harder to succeed 
without a college education and a debt that goes with it, LIUNA 
and other building trades unions are one of the few places 
where a high school graduate can enter an apprenticeship 
program, learn a trade, become a qualified journeyperson and 
build a rewarding, middle-class career.
    LIUNA does not deny climate change. In fact, we are one of 
the few unions that supported cap and trade legislation. But we 
take issue with ``keep-it-in-the-ground'' pipeline opponents 
who ignore the reality that these resources continue to be 
pulled out of the ground anyway and transported by means that 
are riskier and less environmentally sound than pipelines.
    Rather than wasting time and resources fighting over 
individual pipeline and energy projects, we believe it's time 
to embrace a comprehensive, rational, common sense energy 
policy that provides for the safe and responsible development 
of all domestic sources of energy, including wind, solar, hydro 
and nuclear. Unleashing these resources will create economic 
opportunities in communities across the country while making us 
less dependent on energy from nations that seek to undermine 
the American ideals of freedom and liberty.
    Finding realistic, environmentally responsible solutions to 
our energy infrastructure problems isn't a Republican issue or 
a Democratic issue. It's not a conservative issue or a liberal 
issue. It's an American issue.
    Thank you for the opportunity to offer this testimony. I 
look forward to any questions you might have and to working 
with you, Chairman Murkowski and with the entire Committee in 
the future.
    [The prepared statement of Mr. O'Sullivan follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    

      Chairman. Thank you, Mr. O'Sullivan. I think it is a good 
way to wrap up by reminding us that when we are talking about 
infrastructure, whether it is pipelines, whether it is hydro, 
whether it is what we're doing with our smart grid, it, at the 
end of the day, is an opportunity for us to create good jobs.
    I think, if there has been a common thread throughout the 
testimony that we have heard, it is that the regulatory process 
is one that, unfortunately, can yield uncertainty, can yield 
delays and that adds to cost. So I want to just speak to 
everyone and direct my questions in that vein this morning.
    Let me begin with you, Mr. Koplin, and then I will 
incorporate Mr. Leahey in this as well. When we are talking 
about small projects, you mentioned the possibility for Crater 
Lake there in Cordova. What barriers do you have in front of 
you as you work to develop a small scale hydro facility in your 
community? How can Cordova move forward more readily, more 
quickly, with this from a regulatory perspective? If we could 
clear things out of the way, what would it be?
    Mr. Koplin. I'm going to give you a little longer answer.
    Our utility co-chairs, statewide co-chair, the State 
Utility Organization and, in general, the biggest barrier is 
regulatory to developing any renewable.
    Fortunately for us in this case, we broke down the biggest 
barrier by getting the site declared by FERC as non-
jurisdictional. So that gives us the opportunity to, frankly, 
develop this as an agile project and a team that can work 
together through the finish line. Otherwise we wouldn't be 
doing it.
    We literally had been told by the Forest Service that it 
was on their land, so we hadn't even considered this project 
until we found out it was private property.
    Chairman. Yes, which made all the difference, all the 
difference in the world.
    Mr. Koplin. Yup, go or no go.
    Chairman. Yes.
    Let me ask you, Mr. Leahey, when you provided your 
testimony you talked about the fact that only three percent of 
the existing dams out there are actually electrified. When we 
think about opportunities, it is not like we need to go out and 
build a brand-new dam here. We have an opportunity to really do 
so much more with what we have in place.
    Now, I understand that FERC and the Corps have entered into 
an MOU to facilitate the development of these non-powered dams. 
Do you think those MOUs are sufficient? Is there more that we 
can be doing here in Congress to help facilitate the 
electrification aspect?
    Mr. Leahey. Sure.
    We believe that the MOU is going to be a step in the right 
direction and will solve some of the problems, but the problem 
is generalized for hydro licensing.
    While FERC is the issuer of the license, they are not the 
only ones who are involved. There are many state and federal 
resource agency approvals that are needed in order to get a 
final approval done. We believe all of this, all of those, are 
important and are part of the process, but they're all 
independent authorities.
    And so, it's very hard to enforce timelines. It's very hard 
to provide that certainty either in a relicensing of an 
existing project or a new project going forward.
    With respect to non-powered dams and the Corps facilities, 
I also think there could be some additional work that could be 
done within the Corps itself in streamlining some of its 
approval procedures to make that internal work that they do, as 
well as the external work, in coordination with the Corps much 
more coordinated.
    Chairman. We would like to work with you on defining and 
outlining that.
    The reality that the hydro sector is facing right now, not 
only with the licensing of a new dam but the relicensing of 
existing facilities is something that, just, most people would 
say is mind boggling. Ten years and millions of millions of 
dollars for a relicensing. Now, you compare this with a natural 
gas plant developer who can move through this regulatory 
process in a couple years.
    Why is it that when it comes to hydro the regulatory 
process is so much more difficult and then the bigger question 
is what can we do to address it?
    Mr. Leahey. Right.
    Well, again, as I talked about there are so many different 
agencies and statutes that are involved in the relicensing of 
the project because water is a public resource and many 
interests are involved in the use of that water, and rightfully 
so that those people are involved.
    Again, however, coordinating all of that and the meetings 
and the studies and the information that has to be put together 
to do that kind of work takes a lot of time and cost. And if, 
as Clay mentioned, if people are not all, sort of, rowing in 
the same direction then you can see delays in the process.
    And so--
    Chairman. Delays and then cost.
    Mr. Leahey. And then additional costs.
    Chairman. Right, yes.
    Mr. Leahey. And again, how that lines up with tax credits 
that have short-term extensions that we've seen and a process 
that could take five, ten years or longer, provides no 
certainty to utilities, developers or investors.
    Chairman. It is absolutely something we have got to work 
on.
    Senator Cantwell had to take a meeting just briefly, but 
she will be back to the Committee.
    Let's turn to Senator Franken.
    Senator Franken. Thank you, Madam Chair.
    It seems to me there is something, sort of, looming over 
this whole hearing that should be mentioned. When I read the 
testimony of the experts gathered here today it was clear that 
federal investments in R&D have paid off handsomely in the past 
and are vital to our continued success as a nation and 
grappling with our future energy needs.
    I believe it was the last hearing we had in this room, we 
were considering the nomination of Rick Perry to be the new 
Secretary of Energy. On that day, it was leaked that the 
Administration planned to gut our federal commitment to energy 
R&D, a process that also severely threatens the energy R&D 
infrastructure and expertise that we so carefully built up at 
our national labs. It is striking me that there is no one from 
the Administration at this hearing today.
    I just am raising that because so much of what we are 
talking about is at least related, in a very strong way, to R&D 
that has been done by the Energy Department. We are in a 
situation where the future of energy and our planet is related 
to renewable energy. We have received testimony on hydro and 
other renewables, such as solar power, and there are all kinds 
of renewable energy and energy efficiency technologies and 
energy storage that are part of our infrastructure.
    The Chinese are spending $361 billion through 2020 on 
energy R&D, and I do not want them to beat us. I want them 
buying our technology and not us having to buy theirs. But I am 
very worried about this Administration's commitment to R&D.
    Mr. Zindler, you noted in your testimony that last year we 
installed more solar capacity than any other electricity 
generation technology. In the past ten years, we have installed 
more renewable energy capacity than anything else.
    Your company tracks investment and deployment in the clean 
energy sector. In recent years this sector has shown 
significant growth. Do you have a sense of how many people are 
currently employed in the clean energy sector?
    Mr. Zindler. So, well one thing we don't actually do is 
count jobs ourselves, but there are certainly others that have. 
One of the estimates from the Solar Foundation, which is an 
industry group, is that they are employing, I think, about 
250,000 to 300,000 people in the solar industry today.
    Senator Franken. That is solar.
    Mr. Zindler. Solar alone, wind another, maybe 90,000 or 
100,000 jobs.
    In terms of the dollars, which is something that we do 
track, the U.S. has attracted over half a trillion dollars in 
renewable/clean energy investment over the last 10 or 12 years 
or so which is certainly a lot of money. But in the context of, 
as you point out, you know, China typically is investing about 
twice that amount per year or somewhere in the neighborhood of 
$100 to $120 billion over the last several years.
    Senator Franken. What kind of growth are you projecting in 
the future for solar in particular?
    Mr. Zindler. So, I mean, look, we have our own long-term 
forecast--the EIA does, Shell, others do as well. We're 
certainly more optimistic and bullish about these technologies 
than others have been, but I'll also point out we have 
typically been more optimistic and bullish and we've been wrong 
on the low side. In other words, there's been more solar build 
than people, than most people, would have predicted five years 
ago, already.
    And last year the majority of new investment that went into 
power generating and equipment around the world was in lower 
carbon technologies, not in conventional fossil generation.
    Senator Franken. That is good.
    Mr. Zindler. So already that shift--
    Senator Franken. Well, that is good.
    Mr. Zindler. That shift is taking place to some large 
degree. And we think, you know, solar represents a very small 
slice right now of generation in the U.S., maybe one to two 
percent, but we think capacity for solar could get up to as 
high as 25, 27 percent over the next 25 years. It's a long way 
to go, but it's also a long amount of time to get there.
    Senator Franken. Well unfortunately, I have run out of time 
here, but I just think that we have to continue this commitment 
to doing research and development and including in the valley 
of death and all that stuff we did. We still have the $40 
billion in the Loan Guarantee Program. I think we should use 
it.
    I want to thank all of the witnesses today for your 
testimony. Thank you, Madam Chair.
    Chairman. Thank you, Senator Franken.
    Senator Daines.
    Senator Daines. Thank you, Madam Chair.
    Ms. Leopold, in your written testimony you discussed the 
Cove Point Project and its importance to bring American energy 
to allies overseas, specifically to Japan and India.
    In Montana, we have more recoverable coal than any state in 
the United States. I am struck by some stats the U.S. Chamber 
provided a while back that show in the course of the next 33 
years, between now and 2050, the energy demand in the world 
will increase by 84 percent from where it is today. We are 
going to add 1.6 billion people to the planet.
    The question is how are we going to meet the needs as we 
look at an 84 percent increase in energy demand in the next 33 
years? Thirty-three years seems like a long ways away until I 
realize I graduated from college 33 years ago, it doesn't seem 
that far away now.
    Montana coal is low in sulfur content. It is cleaner than 
Indonesian coal. Our allies would very much like to depend on 
U.S. resources and natural resources instead of being dependent 
on countries around the world that are not always friendly.
    Here is some perspective. If you look at the global leaders 
in fossil fuel resources, the global leaders, number one is the 
United States; number two is Russia; number three, Saudi 
Arabia; number four is China; number five is Iran. Our allies 
are asking, ``Can we depend on you, the United States, for our 
future energy security instead of these other nations right 
now'' that if I were allies, I would be very hesitant to 
continue to develop relationship and dependence on them.
    So I believe energy security is center to our national and 
economic security. The question is can you discuss the 
importance of expanding access to our allies overseas for 
abundant American energy resources?
    Ms. Leopold. Thank you, Senator.
    Obviously I'm not an expert on coal export facilities, but 
what I can share with you is while we were negotiating with our 
partners, our customers, for Cove Point in India and Japan, it 
was a significant piece of what they were trying to look at. It 
was not solely price. It was looking at their long-term 
national security. When they looked at the countries that they 
could get exported natural gas from--Japan does not have a lot 
of natural resources on their own. They must import some type 
of fuel to be able to meet their needs, especially after their 
nuclear issues. And India is a very largely expanding economy 
and has choices on where they get it from.
    Senator Daines. By the way, on the Japan point, I think, 
needs to be made that there are 2,400 coal-fired plants on the 
drawing board right now. Two-thirds will be in India and China 
going forward.
    So this nonsense that somehow fossil fuels are going to go 
away in the course of the next 30 years is just, it is 
nonsense. We are either going to be a part of this equation or 
we are not. And well, 54 nuclear plants in Japan following the 
Fukushima issue and incident. They are going to replace about 
45 coal- and natural gas-fired plants. That is where it is 
headed.
    Excuse me.
    Ms. Leopold. Their coal-fired generation is at a much 
higher capacity factor than it used to be.
    Senator Daines. Right.
    Ms. Leopold. So they are looking to bring in more natural 
gas to be able to serve their needs.
    Senator Daines. Right.
    Ms. Leopold. And so, what I would tell you is, is the 
countries that you mentioned are the options that they have on 
the table realistically, along with a few others. And so, it 
seems not only in our allies' national interest to want to look 
toward us, but it's also in our national interest.
    Senator Daines. Thank you.
    Mr. O'Sullivan, I was pleased that President Trump took the 
bold and much-needed action to move forward with the Keystone 
pipeline. It is a major piece of our nation's infrastructure. 
It will create $80 million a year in tax revenues for a lot of 
struggling Eastern Montana counties.
    Our region also has other needs like approval of rights-of-
way across federal land for gas gathering lines to help 
producers capture flaring gas. It seems to be a common theme 
from several witnesses today that there needs to be more 
coordination among federal agencies in the permitting process 
and more certainty in that process.
    I strongly support these efforts. They are also resulting 
in good paying family wage jobs that are currently at risk.
    My question, number one, is how does uncertainty in project 
timelines and approvals like we saw with the Keystone XL 
pipeline affect the workforce? Second question, can you expand 
on the importance of Keystone XL project to your members?
    Mr. O'Sullivan. Well, Senator, it's critically important.
    I mean, we represent middle-class jobs. We work with 
companies that are represented at this table and across the 
United States in creating those middle-class family supporting 
jobs.
    The Keystone pipeline, to me, is a prime example of a 
permitting process that doesn't work. I mean, my view, and not 
to be, I'm not being political, but when the State Department 
says something five times in five reviews, it was pretty clear 
to me and pretty clear to those that I probably represent, that 
until it got the way that somebody wanted it to be, they were 
going to drag their feet and drag out the permitting process 
for Keystone pipeline.
    That pipeline would put about 3,900 members of my 
organization, just the laborers, to work. We're one of 14 
building trades unions, so it's critically important to their 
livelihood.
    As I talk, Senator, about our ability to piece together, 
project by project, these are huge job opportunities for our 
members. They're huge projects for our members.
    It's not typical. My average member works on probably 
anywhere from five to seven construction projects a year.
    Senator Daines. Right.
    Mr. O'Sullivan. And so, projects like this that are multi-
year, that create opportunities for them to work for 7 months, 
for 12 months, for 14 months, on one project, are--we view 
those as a real plum and a real golden opportunity for those 
that we represent.
    Senator Daines. Thank you, Mr. O'Sullivan, because it is 
important that point is made, because sometimes the folks on 
the side of this issue will say well, these are not permanent 
jobs. I am the son of a contractor. You keep food on the table 
stringing together a bunch of temporary construction jobs.
    Thank you.
    Chairman. Thank you, Senator Daines.
    Senator Hirono?
    Senator Hirono. Thank you, Madam Chair.
    A number of you have, as the Chair mentioned, talked about 
regulatory delays and that we should have concurrent regulatory 
review as opposed to sequential. So, is there anything in the 
various laws that apply to these agencies that prevent them 
from entering into MOUs or whatever other arrangements they can 
make to promote concurrent review?
    Mr. Leahey. I'll take that one.
    Senator Hirono. Mr. Leahey?
    Mr. Leahey. Yes, the agencies can enter into MOUs and that 
does happen on occasion. At the end of the day they are working 
under their statutory authorizations for the types of work that 
they have to do.
    We've also found, generally, that even direction from 
Washington, DC, does not always filter out into the regions. 
And so, the person who might be working on your project in 
Hawaii or a project in California or wherever may not have the 
same view of cooperation as what has been coming down from 
headquarter staff.
    Senator Hirono. Well, what--
    Mr. Leahey. So, I think it's an attitude that needs to 
look--
    Senator Hirono. Yes.
    What I am getting at, are there any statutory prohibitions 
that result in subsequent or sequential review as opposed to 
people just not being on the same page at these various 
agencies?
    Mr. Leahey. In hydro, not necessarily statutory, that I'm 
aware of statutory prohibitions, but there certainly have been 
court cases and others that say the Federal Energy Regulatory 
Commission, for another, can't force another agency to act on 
its timeline. That the agency, because of its independent 
authorities under another statute, can work under the timeline 
that it decides.
    Senator Hirono. Yes, but that still does not prevent them 
from entering into an MOU, such as the example of FERC and the 
Corps of Engineers coming together.
    I think, Ms. Leopold and Mr. Bird, you both also mentioned 
the regulatory process. Should we just encourage more MOUs 
among agencies so that we can have a concurrent review?
    Ms. Leopold. Well I guess I would say--
    Senator Hirono. Ms. Leopold?
    Ms. Leopold. Thank you.
    I guess I would mention two aspects there.
    For the natural gas pipelines, FERC is meant to be the lead 
agency and the other federal agencies are cooperating agencies. 
And while they still have full discretion for their expertise, 
FERC is meant to work together with them to develop a schedule.
    So two things that can happen here. The first is some 
agencies may choose not to be a cooperating agency and they 
could go do their own NEPA analysis. Having better definitions 
around the role of a lead agency and the role of cooperating 
agencies would certainly be helpful.
    Senator Hirono. Okay.
    Ms. Leopold. The second aspect that can come into play is, 
I guess what I'd call a do loop, where one federal agency will 
say, I'm pencils down. I can't process your permit until this 
agency finishes the work. And then that agency says, well, we 
can't until some other agency. And it's very hard to break that 
deadlock. So, any clarification on being able to have that 
concurrency of review.
    Senator Hirono. I think if we can hear some very specific 
ways, as opposed to generalizations, how we can have more 
concurrent review, it would be helpful for me, at least.
    For Mr. Zindler, tomorrow the White House is expected to 
release its budget outline and Bloomberg News reported that 
DOE's Office of Energy Efficiency and Renewable Energy which is 
currently funded at $2.1 billion a year could see its funding 
cut by at least $700 million. That is a huge part of its 
budget. As I observed to Secretary Perry during his nomination 
hearing, DOE has been a key supporter of Hawaii's efforts to 
transition from importing oil to renewable energy, including a 
goal of 100 percent electric renewable energy by 2045.
    My question, Mr. Zindler, can you comment on the importance 
of public investment in clean energy technologies, like funding 
provided by DOE, and what the impacts would be on the pace of 
clean energy technology innovation if these programs experience 
major funding cuts?
    I am running out of time so you have to keep your answer 
short.
    Mr. Zindler. I'll be real quick and just say that outlook 
in the short, short run we see a strong pipeline of wind and 
solar and other renewable projects that will be built over the 
next several years, frankly regardless of the budget cuts.
    In the long run, that office and other offices at DOE have 
played a very important role in thinking about the next 
generation of technologies and supporting the research and 
development that needs to go on.
    To be clear, if we look out 25 years our very optimistic 
assessment is based on the assumption that there will be 
technology advancement going forward. And the question is 
whether or not the U.S. wants to lead in that or we want to 
allow some other country to take the lead on that. So certainly 
those programs have been vital to supporting that kind of R&D 
work.
    Senator Hirono. Well, that is not exactly where this 
Administration is going.
    Thank you, Madam Chair.
    Chairman. Thank you, Senator Hirono.
    Senator Cassidy.
    Senator Cassidy. Thank you.
    Mr. O'Sullivan, I am from Louisiana and there are so many 
working families that have the kind of jobs you are describing 
and they just make a good living. As you say, it is one job 
after another, but they are always steadily working. Hats off 
to you for your testimony and for representing the folks whom 
you represent.
    Ms. Leopold, wait, it took you 14 months to get a permit to 
do a survey?
    Ms. Leopold. Yes, we actually completed the survey in one 
afternoon. It was for one-tenth of a mile.
    Senator Cassidy. Did they give you any feedback as to why 
it took 14 months to survey one tenth of a mile?
    Ms. Leopold. We met with them quite a few times. We 
resubmitted an application, we answered questions, and we 
eventually got our right to survey.
    Senator Cassidy. Now I feel like there is a back story 
which you must diplomatically, because you are on national TV, 
so to speak, not convey. That is just mind-boggling that an 
agency would be so inefficient, ineffective, that something as 
harmless as a survey which is not a permission to go forward 
rather just a survey, would take 14 months. As my daughter 
would say, OMG. I am truly flabbergasted.
    Now Mr. Zindler, I really enjoyed your testimony, as I 
enjoyed all of your testimony. You mentioned that there has 
only been 1.5 gigawatts of high voltage direct current 
transmission over a preceding number of years. But I know that 
eight years ago, when the Obama Administration came in, both 
through the stimulus package as well as through regulatory 
changes which allowed utilities to bill ratepayers for such 
lines, there was a concerted effort to put them in. What 
happened?
    Mr. Zindler. So actually, some of my other panelists may 
want to comment on this as well, but I guess I would argue that 
the challenges around building transmission isn't really 
necessarily always related to funding and to whatever stimulus 
efforts or infrastructure efforts, if you want to call that 
now; it is related often to the nuts and bolts of getting 
permitting done across state lines.
    Senator Cassidy. Wait, so the green initiative of the green 
President was thwarted by permitting?
    Mr. Zindler. I would say anybody on this panel would 
probably tell you that building large scale power 
infrastructure has issues regarding permitting, whether it's 
green, yellow, purple, whatever color you want to call it.
    Senator Cassidy. I will just say, again, now quoting Pogo, 
``We've met the enemy, and he is us.'' It is incredible.
    Okay. You mentioned in your testimony the need to reform 
electricity markets but you stopped, period, new paragraph, 
different topic. What kind of reforms do we need to the 
electricity market?
    Mr. Zindler. It's a good question and of course, I stopped, 
period, because that's incredibly complex and boring topic. But 
I could go on all day about it.
    But I would say this, and Mr. Imhoff identified this. As we 
enter a new era of power generation where we have sources of 
generation literally coming from people's roofs, coming from 
small projects here and there and not producing when we want 
them to, necessarily. So you can't, sort of, just send a signal 
and say okay, turn on the solar power. We need to build a 
market that reflects that and takes a look--
    Senator Cassidy. So let me ask.
    In a sense this is a passive versus an act of right. I 
think I have that right, although I am not an attorney. So, you 
are generating solar. You have a right to sell it on to the 
grid, at least getting avoided cost. In the meantime, you are 
putting a nuclear power plant out of business.
    But you need that for base generation. Now there does seem 
to be a quandary we have developed in which you're given a 
right to sell back to the grid but doing that disrupts the 
business model of those who've made billion dollar investments 
for carbon free energy that provides base load to industry. Do 
you follow my point?
    Mr. Zindler. I follow, but I don't agree with your point.
    Senator Cassidy. No, I'm not even sure it's an agree or 
disagree. That is an observation.
    Mr. Zindler. I would say that, first of all, your point 
about nuclear being challenged by current market conditions is 
a very good one. And I think you're right that we have 100 
gigawatts of nuclear power online, by our estimate maybe a 
third of it is facing very challenging economic conditions 
right now in being profitable.
    The challenges that it is most often facing come from low-
priced natural gas and the impact that that's having on pricing 
which, by the way--
    Senator Cassidy. I thought that stuff in Illinois was from 
subsidized wind coming out of Iowa.
    Mr. Zindler. Listen, you could--there are different people 
who will tell you different reasons. I will tell you that 
generally speaking we're talking about 30 or 35 gigawatts of 
nuclear across the country and you look at the wholesale effect 
of lower natural gas prices--
    Senator Cassidy. Let me ask though, specifically of 
Illinois, I am told that it is the subsidized rate in Iowa 
which actually sometimes pays a user to use their electricity 
that is--and I see this gentleman nodding his head--what is 
undermining what is happening in Illinois.
    Mr. Zindler. There are different--I'm not going to speak to 
the Illinois example. I think it's certainly fair to say that 
there are different pressures.
    I would agree with the basic point that is if we want to 
think about a 21st century U.S. energy economy that does 
generate power in a low carbon way, I think your point is 
entirely well-taken that nuclear has to be part of the picture. 
And I also think there hasn't been an entirely rational 
discussion about it to date.
    Whether that means you need to go and pick on some other 
technology, I don't necessarily agree with that, but I think 
looking at nuclear and how you may understand the value that it 
provides and the importance of keeping it online, I definitely 
would agree with that point.
    Senator Cassidy. I thank you. It has been a very 
stimulating panel, thank you all.
    I yield back.
    Chairman. Thank you, Senator Cassidy.
    Senator Duckworth.
    Senator Duckworth. Thank you, Chairwoman Murkowski and 
Ranking Member Cantwell, for convening this important 
conversation.
    As you know the Trump Administration has called for a 
trillion-dollar infrastructure package. I am very encouraged by 
the bipartisan conversations we are having on the scope and 
breadth of this package, and I am very much supportive that any 
type of an infrastructure package includes an energy title to 
go with it.
    I am looking for several things when it comes to this 
infrastructure package, when it comes to energy. I think we 
need to support greater use of clean energy, including nuclear. 
Illinois has more nuclear reactors than any other state in the 
nation. We also need to have strong ``buy America'' and labor 
standards that support construction jobs and go further in job 
creation by reviving our manufacturing sector. We also need 
energy that is affordable.
    President O'Sullivan, I was very much encouraged by your 
passionate discussion of the jobs that could be created by the 
pipelines for your members. Could you speak a little bit to the 
Administration's proposed new rule saying that the pipelines 
would not have to buy/use steel manufactured in America? What 
would it do to your brothers in labor and unions, such as the 
Steel Workers Union, if we rely on Chinese steel and the steel 
that is being illegally dumped in this country?
    Mr. O'Sullivan. Senator, when we had the meeting with the 
President and Keystone pipeline was brought up, I anticipated 
there was going to be a problem with that one because 
TransCanada had already bought the pipeline from India, 
actually. When the President mentioned buy American steel going 
forward, I always anticipated that the TransCanada, the 
Keystone pipeline, was going to be a potential issue but I 
guess that that became a reality.
    But the commitment to build pipe in the United States going 
forward, we are certainly encouraged about that. I mean, we 
love building the pipe manufacturing facilities and the United 
Steel Workers, our brother and sister steel workers, operate 
them.
    Keystone aside, pipe was already on the ground, already 
purchased. We anticipated that one would be pushed aside, but 
going forward we're encouraged that we can build more pipe 
manufacturing facilities and that they will be built union and 
they will be operated union.
    Senator Duckworth. So beyond the pipe that has already been 
purchased, and future pipe, would you support a buy America 
requirement for that, for example, the Dakota Access pipeline 
as well, because we have steel workers who have been unemployed 
for months now, laid off, because of the illegal dumping of 
Asian steel and manufacturers here in this country?
    Mr. O'Sullivan. We would unequivocally support that, 
Senator.
    Senator Duckworth. Thank you.
    Mr. Zindler, I would like to chat a little bit about the 
electricity-generating states in the country. You know, 
Illinois is a leading net exporter of electricity to other 
states. We have extensive wind resources, but we also have 
nuclear. We are second in the Midwest in installed renewable 
power capacity and third in the region for biofuels production 
capacity.
    I have heard from stakeholders across my state, small town 
mayors and Fortune 500 companies, that in order to fully 
realize the benefits of our generating potential, we must build 
new transmission lines.
    Mr. Zindler, in your testimony you make similar 
observations about the need for transmission. In your view, 
should we be concerned that the budget cuts the Trump 
Administration is seeking from our government agencies will 
make it harder, not easier, to get the federal permitting 
approval that industry seeks? Even if we throw out every 
standard, don't we need the personnel and expertise to execute 
these reviews?
    Mr. Zindler. I guess I can't really comment, having not 
seen what this budget is going to be. I will say this, that 
certainly there are--I think under the last eight years the 
U.S. Department of Energy has focused more and more of its 
attention on next generation technologies and how to facilitate 
that, both by funding through the labs, but also efforts and 
outreach.
    So, I do think that the personnel is a critical part of 
this question. I think Mr. Imhoff could probably comment more 
about that at the lab level. But your point is very well taken, 
although, like I said, we really would want to see what the 
actual programs are that get cut potentially.
    Senator Duckworth. Well, so if they cut the inspectors and 
there were fewer to go through to execute the review process. 
Would that make it harder?
    Mr. Zindler. That wouldn't be great news.
    Senator Duckworth. Okay, thank you.
    Mr. Bird, as you know our transmission system is privately 
owned, not publicly owned. What type of policies would help 
industry to invest in new transmission lines outside of federal 
permitting reviews? For example, would state revolving funds be 
useful? Are there investments in workforce that need to be 
made?
    Mr. Bird. Again, I think as my colleague mentioned earlier, 
you know, funding is really not the primary constraint for us 
to expand our transmission infrastructure. It's really working 
through the permitting process. That's the key thing.
    I think I would comment that there are other transmission 
owners and operators that we connect to that are also important 
to manage the entire reliability of the grid and even serve our 
own customers. And so, there are entities like the Bonneville 
Power Administration, for example, and other public entities 
that might benefit from some sort of public financing 
opportunity that could be a possibility. But again, our key 
constraint is, frankly, really getting through the permitting 
process to bring good projects, you know, into being.
    Senator Duckworth. Well, let's hope the hiring freeze and 
the budget cuts do not affect the folks who actually do that 
review.
    Thank you. I am out of time. Thank you, Chairman.
    Chairman. Thank you, Senator.
    Senator Gardner.
    Senator Gardner. Thank you, Chairman Murkowski, for holding 
this hearing today, and thanks to the witnesses for your 
expertise and your participation in the hearing.
    I know Senator Cantwell brought this up in her opening 
comments. She was talking a little bit about cybersecurity 
concerns, but I, too, have read the article that was in the 
Houston Chronicle--the title of the article was ``Opportunities 
to Improve American Energy Infrastructure.''
    It talked about, I think, a subject called ``Hacked, 
cybersecurity experts easily infiltrate energy company's 
networks.'' It was a story about how, for just a couple hundred 
bucks, a security team, using a blanket and a couple of 16-foot 
ladders, were able to hike a fence, go into the computer 
network building of a power plant and basically infiltrate the 
network that way. That was just a way for the team at the plant 
to test its security and make sure that they were doing it 
right.
    The Senate has held 20 hearings this year in nine different 
committees on cybersecurity. One of the concerns that I bring 
to this Committee, to this hearing and to the industry is the 
cybersecurity risks in the energy sector. A big concern of mine 
is how we have to have infrastructure conversations that 
include a dialog on protecting and recovering electricity, 
critical infrastructure from cybersecurity threats.
    Mr. Imhoff, I will start with you. I know that the National 
Renewable Energy Laboratory (NREL) works with PNNL in the Grid 
Modernization Laboratory Consortium. Thank you for your work 
with the consortium, and obviously, your lab's role in cyber 
resilience of the grid.
    A concern is about the process for recovery of the 
electricity grid should there be a widespread outage from a 
cybersecurity or cyberattack. Could you describe the process 
for conducting exercises with the industry regarding potential 
cyberattacks?
    Mr. Imhoff. Happy to, Senator, and thank you for all the 
good support we get from NREL and the overall good 
modernization effort.
    The industry has, as driven by the NERC-set requirements, 
incident plans that they put in place to deal with cyber 
issues. They have conducted over the last several years four 
national exercises, called Grid X. These exercises are designed 
around specific scenarios of threat.
    These exercises are led by NERC, and their member utilities 
are invited to come in and participate in this artificial 
exercise and demonstrate how they would implement their 
incident response plan.
    These exercises include participation from federal 
officials, including the Department of Energy and other federal 
entities, Department of Defense and others who have 
infrastructure in these locations. It also includes law 
enforcement and vendor community, et cetera. It is a very large 
stakeholder group, a multi-day activity, with very complex 
scenarios where they basically exercise and test their incident 
response plans, extract lessons learned and look for how they 
can improve them into the future.
    We are currently designing Grid XV. PNNL helps drive those 
activities. We participate as an infrastructure with 
substantial national security information, all within our 
firewalls and we are--we monitor and drive the activity. So, 
it's a large national exercise.
    And then I would add to that conversation, Senator, that 
with the FAST Act, the authority for it rests with the 
Department of Energy in terms of those emergency response 
activities. The President needs to make a declaration of an 
event. The Secretary then needs to identify what the path 
forward is going to be. There is dialog, consultation with 
industry in that activity, and then the utilities would begin 
to implement their incident response plans accordingly. So, 
that's the high level, general approach that I can share with 
you.
    Senator Gardner. What percentage of industry has 
participated in such an exercise?
    Mr. Imhoff. I don't know the exact percentages. We have 
three and a half thousand utilities. I'm guessing you're having 
30 to 60 utilities participate in those exercises.
    But the utility industry is like a wedding cake, with lots 
of layers. And the risk in cyber events tends to be higher in 
those entities that have a broader span, PacifiCorp, Pacific 
Power, Bonneville and others, the Western Coordination Council, 
et cetera. They're all at the table and playing. You may not 
have a small, municipal utility from Eastern Washington 
participating so I think while it's small in fraction in 
number, it's probably a large fraction in terms of those 
strategic partners that need to be there.
    Senator Gardner. What more ought we be doing in terms of 
the cyber structure, cybersecurity structure, that government 
can use to help utilize with industry?
    Mr. Imhoff. Excuse me, could you repeat the question?
    Senator Gardner. Yes, how can we work, how can the Federal 
Government better work with industry to create a more proper or 
better cybersecurity system?
    Mr. Imhoff. So, several dimensions.
    One of the key issues is around training and workforce 
development. And so, what the Federal Government can bring to 
bear is advanced techniques and concepts that are developed in 
support often on the high side of the activity. We can bring 
those tools, techniques and concepts available and forward to 
industry. And that's what's going on in the CRISP Program 
today.
    The government can also bring its fundamental science in 
deep learning and advanced computation to help develop better 
situational and awareness tools that take advantage of the 
broad sensed information that we're now receiving from the 
utilities.
    General Electric reported two weeks ago, at a House 
hearing, that only two percent of this vast digital data flow 
coming in off the grid is actually being utilized and analyzed. 
So, we have opportunities for better leveraging advanced 
computer, advanced analytic concepts, visualization, to give us 
a better state of awareness in terms of what's going on with 
the grid, where is the risk. And that's a process where, I 
think, the Federal Government could deliver those tools to the 
private sector to enhance security.
    Senator Gardner. Great. Thank you.
    Thank you, Madam Chair.
    Chairman. Thank you, Senator Gardner.
    Senator Cantwell.
    Senator Cantwell. Thank you, Madam Chair.
    Following up on those same questions, Mr. Imhoff, that my 
colleague from Colorado asked. In our energy bill we really 
tried to focus on the workforce side since there's a huge 
shortage of workforce well prepared to help us on 
cybersecurity. So we definitely want to do that and also on 
that supply chain that we talked about earlier. We want to make 
sure that we know where the supply chain is coming from, where 
the products are coming from.
    You talked a lot about distribution, automation and 
management control systems. When you think about Homeland 
Security, protecting or thinking about how to harden our 
targets on a critical side or, you know, in the old days we had 
a pipeline that we might want to protect. Now we have an entire 
network that is increasingly linked as our economy has become 
more and more wired.
    The points of contact are very diffused and coming up with 
this critical infrastructure network that we can defend against 
both various small malware attacks, you know, such as the one 
that happened in Vermont against a utility up there (people 
believe that was some sort of Russian malware) and then the 
state attack response where a foreign entity actually does 
something like what has happened in Ukraine. You mentioned a 
few of the tools that we need. Why do we need DOE to play more 
of a leadership role of this area?
    Mr. Imhoff. Well, I think that the solution is very much a 
partnership between DOE and industry. So it's a joint, kind of, 
community that needs to work together on this activity.
    There's a lot of just fundamental blocking and tackling 
that needs to transpire. When DOE conducted the modernization 
four or five years ago, all of the investment grants required 
cyber protocols as standards put in place, a phenomenal benefit 
to the small and midsized utilities who don't have the large 
engineering staffs and all that deal with cybersecurity. So it 
really raised the bar in terms of small and midsized utilities 
understanding good practice around cybersecurity.
    I think there remains a lot of opportunity for training and 
education and demonstration to raise the bar to good, basic 
practice of both around cyber operations, even around simple 
things like supply chain acquisition language. The small 
utilities that are just now moving into the advanced metered 
would be told to have the right language in their acquisition 
to reduce their vulnerability to the supply chain risk.
    Another big issue that I would raise, and it really fits 
the energy infrastructure question, is the very tight and 
increasingly tight dependence between energy and our 
communication networks. Ten years ago it was pretty easy for 
PacifiCorp to run their system with not a lot of 
communications. Today's communication is very fundamental. It's 
a real-time operation and situational awareness. And as we have 
the explosion of the devices at the edge, we need to rethink 
how do we provide those communications and how do we make them 
secure?
    There's, today the practice is an application brings us the 
communications with it. Tomorrow, we think we need to look at a 
different architecture, more of a layered architecture, 
infrastructure architecture, around communications that will 
serve multiple applications. It's easier to secure. It's easier 
to train so that it's implemented to maintain effectively.
    So these are some of the changes we probably need to think 
about and frame.
    And here again, I think, is a very good partnership between 
some of the fundamental science knowledge coming out of the 
government linked with the very good work of our vendor 
community. And this just goes to the world and many others. It 
could bring to bear in terms of how do we re-architecture and 
provide the traffic capacity that we need for a more 
distributed, more intelligent and more digital energy future.
    Senator Cantwell. So we could have a bulk attack like we 
have seen in other places?
    Mr. Imhoff. Well, there's a wide range of attack scenarios 
that could be applied, and we need to design systems and have 
the human training to resist those.
    The current, for instance, you mentioned the Ukraine 
activity. I was not personally involved in that diagnosis, but 
I do know that most of the NERC requirements have a defense in 
depth activity that would have been very resistant to what 
occurred in that case. There again, architecture, training, 
preparation, incident response planning, I think, are the ways 
that we help defend.
    Senator Cantwell. And this is why I want DOE to make sure 
they are playing a leadership role. I want to make sure when 
the President puts out an Executive Order, he doesn't say that 
that is for the Homeland Security Department.
    What you just described is a key responsibility that only 
DOE can carry out because you are talking about this system. To 
me it is worrisome that these attacks happen. Every time there 
is some story line in a movie or TV show about cyber, I always 
am constantly asking my staff for an analysis of whether that 
really can happen or not.
    I find it very interesting that most of those plots involve 
attacks against energy systems. Why do they attack the energy 
system? A disruption of our energy supply would make us so 
vulnerable.
    So thank you for your testimony and outlining those things. 
I think it was very clear about why we need a more aggressive 
role by DOE and all of these cyberattack issues.
    Thank you.
    Chairman. Thank you.
    Senator King.
    Senator King. Thank you, Madam Chair. I apologize for my 
lateness. I was at an Armed Services Committee hearing.
    Mr. Imhoff, the grid, if Edison woke up tomorrow, would 
look pretty much the way he envisioned it and saw it developing 
100, more than 100, years ago. Don't we need to be thinking 
about the grid in a different way, at least in terms of the 
potential of distributed energy, that is, generation at the 
factory or at the home level and also load management, demand 
management? These are things that can fundamentally change the 
grid from the model of big plant wires and passive receiver of 
the power. Is that something that you think we need to be 
thinking about?
    Mr. Imhoff. Absolutely, Senator.
    You're right. Many of the same components that Edison was 
familiar with are still there and they're still, in most cases, 
performing very well. But we have a transition to much more 
distributed activity, particularly down at the distribution 
system level.
    And pretty soon it's going to challenge our ability to 
control those devices. It's going to challenge our ability to 
communicate with those devices, and oftentimes the grid 
reliability coordinators can't actually see what's going on at 
that level. Twenty years ago, it didn't matter. They were, 
distribution and transmission, were separate worlds.
    Senator King. But in Maine, for example, we have smart 
meters. Isn't that part of the answer? My sense is we have the 
technology. It just isn't utilized.
    Mr. Imhoff. Well, so the nation has 64 million in smart 
meters this year. That's about a 50 percent penetration. Most 
of the utilities I talk to have extracted much more value out 
of that investment than they estimated going in. So it's 
delivered a lot of value in terms of customer choice, 
reliability management and other things. At the national level, 
we have 2,000 phasor measurement units that are networked 
across the U.S. We can see the system like never before.
    Senator King. And that gives us the potential to do things 
like load shifting.
    Mr. Imhoff. Yes.
    Senator King. Load management. And we don't have to cook 
our water at four o'clock in the afternoon.
    Mr. Imhoff. That's right, but we need some new approaches 
for how we control and how we communicate, interact, with these 
resources.
    Senator King. Well, I would point out that one of the 
things people always talk about is energy costs. Everybody 
focuses on the energy. Again, in Maine, the cost of 
distribution and transmission is now equal and in some cases 
more than the cost of the energy itself. We need to be thinking 
about how to make the grid more efficient and perhaps how to 
avoid future infrastructure investments that may be unnecessary 
given the role of distributed resources.
    Mr. Imhoff. Correct.
    The DOE initiative that we mentioned earlier, the Grid 
Modernization Initiative, has some projects looking at next 
generation tools and platforms that connect across distribution 
and transmission operations. So we can actually run that system 
closer to the edge, get better asset utilization. That gives, 
that would keep the delivery system more affordable and lets 
you exchange value across that membrane.
    We did conduct six workshops around the country for grid 
modernization--Austin, Atlanta, Minneapolis, Boston, Seattle. 
And we come--had a common feedback that increasing, there's so 
much going on at the lower distribution level in terms of 
photovoltaics and demand response and other things, that the 
bulk system operators reliable for reliability are now saying 
that they need to be able to see down into that system and vice 
versa, the distribution companies want to be able to see what's 
going on with the bulk system. Our digital opportunities mean 
we need to have a better exchange of information and operate in 
a more unified fashion.
    Senator King. But as you know the grid is, by definition, 
an inefficient animal because it is designed for the hottest 
day, the most use of the year. It's like building a church for 
Christmas and Easter and you have a lot of empty pews the rest 
of the year. There is a lot of slack in the grid. It is that 
target of opportunity, it seems to me, that we need to be 
thinking about in terms of things like demand management.
    One more quick point before we leave. I am really worried 
about grid vulnerability to cyberattack. Ukraine was a warning 
shot. How many warning shots do we need?
    Somebody observed the other day that we are looking at the 
longest wind up for a punch in the history of the world. We 
know it is coming. And I know everybody says well, we are 
working on it and we have the architecture and everything else.
    I am just worried that we really don't have the sense of 
urgency that, I believe, is called for in this situation. I am 
going to mention a bill that Senator Risch and I have sponsored 
before this Committee to have your lab examine the idea of 
analog, putting in some of the grid architecture, some old 
fashion analog switches because that is one of the things that 
saved them in the Ukraine, that they had to--they weren't as 
fully digitized as we are and therefore, in one sense, less 
vulnerable. Do you have a thought on that?
    Mr. Imhoff. So, there are several different approaches 
being considered. One is the use of analog systems, the other 
is looking at separate networks, and the other is looking at 
creating air gaps between certain networks. Some of these have 
been tried in various venues in the past.
    I acknowledge that in the case of Ukraine, it was a bit of 
a backstop for them that was helpful. It remains to be seen 
whether that's the right path to go forward as a nation. If you 
move into some of those directions, you let go of some of the 
other benefits you're getting from the digital systems.
    Senator King. And our bill does not mandate that we move 
forward. It mandates that your lab and utilities, on a 
voluntary basis, study this as an option. It does not require 
anything.
    Madam Chair, my time has expired. I will yield, but I would 
like a second round, if possible.
    Thank you.
    Chairman. Thank you, Senator King.
    Senator Cortez Masto.
    Senator Cortez Masto. Madam Chair, thank you. I also 
apologize for my tardiness. I am also attending the Banking 
Committee hearing, so I appreciate you being here today, 
appreciate the written comments ahead of time, that was very 
helpful.
    I just have a few questions, starting with Mr. Bird. Nevada 
has the most public lands of any state in the nation. You 
brought up a salient point in your comments, written comments, 
that there is sometimes tension between protecting public lands 
and expanding access to renewable energy through expanded 
transmission lines. Do you believe that collaborative agency 
implementation of the westwide corridors has improved that 
issue?
    Mr. Bird. Thank you, Senator.
    My first comment would be we've seen, you know, good 
examples of coordination amongst federal and state agencies. 
The best example of that was in our energy gateway project in 
the Sigurd to Red Butte, a 170-mile project in Utah, you know, 
that crossed federal lands.
    In that state there was very good planning and coordination 
up front by the agencies and then that was executed and that 
was a project that was then permitted on a timely basis. We 
were able to get it completed and provide the value that it 
needed to customers.
    I'm not as familiar with the western corridor, specific 
questions, so I'd like to follow up with that, you know, 
following the hearing today, if I could.
    Senator Cortez Masto. No, I appreciate that. Again I 
apologize for being late and you may have already talked about 
this, but how do you think federal agencies can better provide 
schedule certainty to meet the permitting targets?
    Mr. Bird. And again, thank you for the question.
    I think that is really the most important issue that we 
have. Schedule certainty is, frankly, much more important than 
how long it takes.
    I mean, I've described the process that took ten years with 
our Gateway West Project and what was particular to causing 
that long delay was the fact that we had to restart the 
permitting process all over again as soon as a new policy or 
guideline was issued. That's what really contributed to a very 
long delayed project that would otherwise bring in tremendous 
amounts of new clean energy and relieve constraints.
    So that really is fundamental to our recommendation that, 
you know, there would be a policy enactment that would provide 
deadlines and accountability, single point of accountability. 
That's how we run our business. You know, I ask a single 
person, that's going to be responsible to deliver a project, on 
schedule, on budget, you know, if we could get more of that 
incorporated into how the Federal Government operates in a 
permitting process, that would be much appreciated.
    Senator Cortez Masto. Thank you.
    And then Mr. Zindler, geothermal is a very important energy 
industry in my state, like the FORGE Geothermal Project that I 
recently had the opportunity to visit. They are concerned about 
their exclusion from the investment tax credit as well as the 
production tax credit. What incentives should be available to 
support the renewable energy sector, especially as the ITC and 
PTC are phased out?
    Mr. Zindler. That's a very good question. And as you know 
there was an extension for the wind and solar industries, I 
believe, at the end of 2015, but not for some of the other 
technologies.
    I would, sort of, caveat this by saying that the ITC or the 
tax credits for geothermal were never a perfect fit anyway 
because of the long lead time that it takes to explore a 
geothermal resource to determine whether or not it's sufficient 
and then make the determination to go forward with developing a 
project.
    So, the long timelines associated with that process don't 
necessarily fit and on again, off again schedule on the tax 
credits which is what we'd seen previously. So, that wasn't a 
great fit to begin with, but of course, not having it at all is 
certainly worse.
    Senator Cortez Masto. Right.
    Mr. Zindler. And I think that's really where the industry 
is today.
    But geothermal, in particular though, we have seen other 
kinds of examples in other countries in other contexts where 
they're trying to figure out a way to, sort of, offset the 
early risk associated with doing exploration. And that is 
something, I think, that is important to the specific, but very 
important to the geothermal industry to, sort of, oversimplify 
it and with geothermal the developer and the explorer has a lot 
of the risk that's similar to exploring, say, for oil or gas. 
But the upside is not as high because you can't sell what you 
get out of there at the same price.
    A rational way to try and support the industry that we've 
seen in other places is to try to help defray some of the early 
stage risk that's associated with geothermal, and that might be 
something at least worth considering in the U.S. context.
    Senator Cortez Masto. I appreciate that, thank you. And I 
see my time is almost up.
    Let me also just make a comment about cyberattack issues. 
In the State of Nevada, as Attorney General, I chaired a 
Technology Crime Board. This was one of the issues that we 
focused on because it is real and it is just a matter of time, 
and a concern of mine as well and something I would like to 
see, working with the industry, how we address this.
    There is no doubt in my mind. There are attacks that have 
already occurred, will continue to occur and we need to be very 
proactive and work together to address this issue.
    So, thank you.
    Chairman. Thank you.
    I have, probably, a wrap up comment, but I know Senator 
King, you had asked for a second round.
    Senator Cantwell, do you have another question?
    Senator Cantwell. I wanted to get Ms. Leopold or Mr. Imhoff 
on the record about the larger benefits of pumped storage to 
the grid, if any of you have any comments about that, or Mr. 
Zindler.
    Mr. Imhoff. So, pump storage fits in that category that I 
called flexibility. Back in the old days in the West when we 
had lots of excess storage capacity, they just used that pump, 
the hydro system, for a lot of the flexibility in the system.
    Pump storage is an awesome resource for maintaining grid 
reliability. I think the big challenge is just the siting 
issues, you know, the economics behind pump storage, I think, 
are very challenging today. But, as a part of a grid 
infrastructure for reliability, it's a phenomenal resource for 
reliability surfaces and flexibility.
    Senator Cantwell. Anybody else? Yes?
    Ms. Leopold. I would just add that it very much can partner 
with a diverse set of energy resources, such as renewables, to 
be able to use that at the times when it is available and then 
be able to use the hydro at other times.
    So, I very much echo that comment, but it really does add 
to a lot of flexibility, both for grid reliability as well as 
partnering for increased renewables.
    Mr. Leahey. And I would just add that there is, right now, 
about 15,000 megawatts of proposed pump storage projects, 
different sites across the United States, mostly in the West. 
One of the reasons why we are seeing that is because of 
integration of intermittent renewables.
    Projects are now being asked to do more, and they're 
responding. Years ago, my utility members telling me they never 
would have considered pumping during the daytime, you would 
always pump at night or on the weekends. Now in California, 
with as much solar penetration as there has been, they're 
actually using some of that solar energy to pump during the 
day.
    So the grade is changing, the world is changing and pump 
storage, I think, has a tremendous role to play. Even though 
traditionally it's been grid, large grid storage, we are now 
looking at smaller sized facilities as well.
    Senator Cantwell. And what geographic region do you think 
can look at projects like that?
    Mr. Leahey. Well, you know, the proposed projects right now 
are across, I think, something like 10 or 12 states. Obviously, 
you have to have certain characteristics. You have to have the 
head differential between the upper and the lower reservoir.
    But again, I think, we're looking at a variety of different 
projects. There's even a project in Hawaii that they're looking 
at as well.
    So, I think, you're, we're looking at traditional projects 
which were larger scale projects, but we're also looking at 
some new technologies that the DOE has been looking at as well 
that would be smaller in size and scale.
    Senator Cantwell. Well it just strikes me, as we look at 
battery storage that some very smart people are working on, 
there is a basic storage technology that is already proven here 
and can provide that flexibility and reliability. I definitely 
think we should focus more on what it can do for us in 
providing that flexibility to the grid. So thank you.
    Mr. Leahey. We would agree.
    Senator Cantwell. Thank you, Madam Chair.
    Chairman. Thank you.
    Senator King.
    Senator King. On the point of storage which, I think, is 
one of the key issues going forward. I became familiar with a 
really fascinating project in, I think it is in Nevada.
    It is called Solar Reserve where it is a solar facility 
with concentric rings of mirrors, a tower in the middle, but 
the key is that in that tower at the top where all the energy 
is concentrated, is molten salt which stays liquid at over 
1,000 degrees. The salt is heated up. It is then pumped down 
into a heat exchanger and it can hold its heat overnight.
    So this is essentially a solar plant that is also a base 
load plant. It can deliver power 24 hours a day/seven days a 
week which is, I believe, a kind of breakthrough in the 
technology. Molten salt apparently has much better 
characteristics for this than water which vaporizes at 212 
degrees. So this is very interesting, and I think this is a lot 
of work going on in batteries and in other kinds of things.
    The question I wanted to ask, Mr. Leahey, is that for 
example, in Maine we have something like 700 dams, very small a 
lot of them, a megawatt or so. A lot of them are facing 
relicensing at high cost. Do you have some thoughts on how we 
cannot lose sight of hydro as a clean energy source and be sure 
that the regulatory system is tailor made to the size and 
potential impacts of the projects?
    Mr. Leahey. That's a great question.
    There are approximately 400 projects that are coming up for 
relicensing, existing projects by 2030, representing over 
18,000 megawatts of capacity. That's a tremendous amount of 
capacity in the existing hydropower system that if you lose 
flexibility, if you lose capacity or if projects start to get 
surrendered because of cost concerns, you're going to have to 
replace that clean, renewable power with something else. And 
will it be renewable or will it be low carbon? Who knows?
    I know Maine does have this issue. I've spoken with 
Kennebunk Power and Light, who have a very small project. And 
smaller projects, in particular, face, in many ways, the same 
licensing process that the larger projects have but they don't 
have the economies of scale. In that sense, a lot of 
transactional costs get placed onto those projects because of 
the long timeline, some of the duplication of effort that is in 
that system.
    So I think, this Committee, and I commend Senator 
Murkowski, Senator Cantwell and the entire Committee on what 
they tried to do for hydro licensing last year. I think a lot 
of what was proposed in that bill would have helped projects 
like those in Maine.
    Senator King. If you have any further thoughts about how 
this, and we don't want to give up the regulatory regime all 
together, but how we can scale the requirements to the size of 
the project so that we don't lose these resources, many of 
which have been in place for 100 years.
    It is a settled ecosystem. In fact, there would be as much 
or more environmental disruption if the dam came out than if 
you can maintain it. So to the extent that you can provide 
thoughts and suggestions, any of you, on the licensing 
challenges so that we can right size the regulations, if you 
will.
    Mr. Leahey. I would be happy to follow up with your staff 
and look at this more closely.
    And again, I think there are different types of hydropower 
projects, as I highlighted in my written testimony, from new 
builds to small conduit projects to marine energy. And I think, 
looking at those individual technology types and trying to 
determine what is the appropriate scope of review of those 
projects, it may not be necessary to give the same kind of 
scope of review that you would give to a large, new build 
project that you would be proposing, as opposed to, building on 
a conduit on an existing dam or something like that.
    Senator King. Thank you.
    Thank you, Madam Chair.
    Chairman. Mr. Koplin?
    Mr. Koplin. Senator King, if I could just share something 
actionable there.
    If you could take one representative from each of the 
federal and state agencies that are going to touch those 
projects and find champions in those departments that are 
advocates of hydro and put together a working team that they 
could go out in the field and be that economy at scale, that 
that's all they work on.
    The FERC did something similar on their side, I think back 
in the 80's or 90's. They had a whole bunch of licenses that 
came due at the same time. They hired a contractor to handle 
the FERC side.
    It's a trillion-dollar question. How do you streamline the 
regulatory process? I'm not sure that you can if you have bad 
actors out in the field and I've seen those in state agencies. 
I've seen them on the federal side. But if you can get the 
people who really have the agility and the desire to promote 
those projects and get them out in the field where they can 
still execute their responsibility to the environment and to 
the other stakeholders, I think you can achieve economy at 
scale that would be orders of magnitude, frankly.
    Senator King. Particularly because you are developing 
projects that are, themselves, environmentally beneficial. It's 
not like you are building something that would be necessarily 
damaging. We are talking about clean energy and renewable 
energy here.
    Mr. Koplin. Exactly, and that's--the accountability has 
been mentioned a couple times.
    We had non-governmental organization, I think this is a 
good, little story that fiercely opposed one of our 
hydroelectric projects, but they never read a plan set when we 
offered them. They never came out in the field and looked at 
the project site. They advertised nationally and got well 
intended funding to oppose the project. And at the end of the 
day, three years later, we actually hired them to re-vegetate 
some of the project. Once they saw it, they were impressed and 
actually approached us and asked if they could partner on 
future projects.
    So, people have to--there has to be an accountability to 
actually see what's going on and be answerable to their 
opposition, I guess.
    Senator King. And let's be clear, nobody here is advocating 
abandoning regulation or giving a free pass to any project. 
Again, it is a question of having the regulation meet the 
specifics of that situation and particularly, given the scale 
of the project, you do not require 10,000 pages for a home 
mortgage at a bank, although, I fear, we are heading in that 
direction sometimes. But it is a question of right sizing the 
regulation, I think.
    Thank you.
    Thank you, Madam Chair.
    Chairman. Thank you, Senator King.
    I know that a couple of our witnesses have to leave at 
12:15, but I just wanted to ask Senator Cortez Masto, if you 
had any further--
    Senator Cortez Masto. No.
    Chairman. Okay.
    I want to thank our witnesses for being here today. I think 
there was great discussion, a lot, certainly, on cyber which is 
on everyone's mind.
    The discussion about renewables is always important and I 
think, particularly, when we hear some of the discussion about 
where the winners and losers are with some of the policies that 
we lay down.
    We know that we have got production tax credits that are 
still out there for wind and for solar, but you mentioned the 
geothermal aspect of it.
    We also talk about hydro and the fact that because it is 
not designated as renewable, it misses out on some of these 
opportunities.
    I think it was very important, as we talk about the 
infrastructure, to recognize the potential for jobs and job 
creation. And Mr. O'Sullivan, I appreciate your testimony.
    Mr. O'Sullivan. Thank you.
    Chairman. Whether it's how we build out pipelines, whether 
it's how we access amazing resources like ANWR or other energy 
sources around the country, these are jobs and this is our 
economic future here, so it is good to hear.
    I will say, though, that some of what we heard today about 
the regulatory impediments to our infrastructure, we can have 
as many shovel ready projects as we can possibly line up on 
paper, but when we meet the regulatory overlay or delay or just 
the bureaucracy that, unfortunately, hits and causes that 
uncertainty, causes increased costs, it really does complicate 
so much of what we do.
    And to hear your comments, Ms. Leopold, about a 14-month 
process to get a permit to survey--a survey that takes 
basically a day. It just reminds us of what we are dealing with 
with hydro relicensing, ten years and I am told relicensing 
costs of tens of millions of dollars, $20 to $50 million, in 
that range for relicensing of an existing facility.
    We saw what happened to Shell a couple years back, seven 
years and $7 billion into a project that they walked away from. 
Conoco-Phillips, the NPRA was looking at about seven years to 
permit a bridge, three of that for the review of the bridge, 
four of that for litigation. It causes you to wonder how we get 
anything done around here.
    I think, Mr. Koplin, you kind of summed it up when you 
said, ``Our little project is at the bottom of the regulatory 
dog pile.'' Sometimes it must make you feel just like that. How 
do you crawl out from underneath it?
    I think part of our job here is to, again, we don't want to 
abandon the regulations that allow for safety and good 
environmental considerations, but we want to allow for a 
process that is a workable process and one that is fair to the 
investors and fair to the project and fair to the workers that 
want to create them.
    So this has been a good discussion. I appreciate it all.
    Again, thank you all for making it through the weather to 
be here today and to contribute to the testimony.
    Senator Cantwell.
    Senator Cantwell. I would just feel remiss if I did not say 
to Mr. O'Sullivan, three days before St. Patrick's Day, and 
he's wearing a green tie--we're not going to be here on St. 
Patrick's Day--Happy St. Patrick's Day.
    Thank you.
    [Laughter.]
    Chairman. We stand adjourned.
    [Whereupon, at 12:13 p.m. the hearing was adjourned.]

                      APPENDIX MATERIAL SUBMITTED

                              ----------                              

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


</pre></body></html>
